  Peace Corps
  Office of Inspector General




        Security Strategies



       Final Audit Report:
Peace Corps Volunteer Safety and
        Security Program


                              April 2010
          Final Audit Report:
Peace Corps Volunteer Safety and Security
               Program
              IG-10-08-A




        ____________________________________
                 Gerald P. Montoya
        Assistant Inspector General for Audit




                    April 2010
                            E XECUTIVE SUMMARY
Since 2002, the Peace Corps’ safety and security program has evolved significantly and
substantial progress has been made in addressing the agency’s safety and security needs.
For example, Peace Corps established the Office of Safety and Security, revised Peace
Corps Manual section 270 that outlined the components of the agency’s safety and security
support system, established a self-certification compliance check, and assigned safety and
security coordinators to each overseas post. In addition, Peace Corps maintained a much
larger safety and security workforce than comparable international non-governmental
organizations. Overall, Volunteers overwhelmingly reported that they were satisfied with
their level of safety and security and staff support.

Despite these achievements, we identified multiple areas where Peace Corps needs to
improve in order to ensure that the agency’s safety and security program is complete,
implemented consistently, and positioned to meet the unique safety and security challenges
it faces. Although Peace Corps established the Office of Safety and Security to provide
oversight and management of all agency safety and security, it served as a consultative
office, not an oversight office, and relied on the Peace Corps’ overseas posts to request its
assistance and implement its suggestions. The posts independently managed their safety
and security budgets and personnel without oversight from the Office of Safety and
Security. In addition, regions provided general oversight to posts, but had not clarified
their safety and security roles and responsibilities.

Our review found that without a clear management structure, no office accepted complete
ownership of the safety and security program, and the agency’s security program lacked
essential elements. As a result, Volunteers were placed at greater risk because the agency
did not ensure that posts fully implemented required safety and security policies.
Specifically, Peace Corps had not:

   •   Developed a comprehensive security strategy and plan that articulated how the
       agency’s security policies related to the acceptance model
   •   Aligned safety and security personnel’s roles and responsibilities with the agency’s
       stated priority of safety and security
   •   Defined the skills and experience needed for all security positions
   •   Consistently hired people with adequate skills and experience to fill its safety and
       security positions
   •   Clearly defined the roles of headquarters safety and security staff and field safety
       and security staff to avoid unclear expectations and duplicate responsibilities
   •   Standardized training for safety and security personnel

In addition to the lack of defined roles and responsibilities within Peace Corps, the agency
had not formalized its relationship regarding safety and security responsibilities with the
Department of State.




                                                                                           i
Therefore, Peace Corps did not ensure a consistent and complete safety and security
program. This increased the risk that posts had not fully implemented essential security
policies and practices that protect Volunteers. Our report contains 28 recommendations,
which, if implemented, should strengthen internal controls and correct the deficiencies in
the Peace Corps overseas safety and security program.




                                                                                         ii
                                            TABLE OF C ONTENTS


EXECUTIVE SUMMARY ................................................................................................. i

SAFETY AND SECURITY BACKGROUND .................................................................. 1

FINDING A. SAFETY AND SECURITY ORGANIZATIONAL STRUCTURE ........... 6

FINDING B. COMPETENCY OF SAFETY AND SECURITY POSITIONS .............. 20

FINDING C. MAINTAINING AND COMMUNICATING SAFETY AND SECURITY
POLICIES ......................................................................................................................... 31

FINDING D. INTERAGENCY RELATIONSHIP ......................................................... 40

OBJECTIVES, SCOPE, AND METHODOLOGY .......................................................... 43

INTERNAL CONTROLS ................................................................................................ 46

QUESTIONED COSTS AND FUNDS PUT TO BETTER USE ........................................... 48

LIST OF RECOMMENDATIONS .................................................................................................. 49

APPENDIX A: ACRONYMS AND GLOSSARY

APPENDIX B: PCSSO AND SSDO RESPONSIBILITIES

APPENDIX C: SSC STATEMENT OF WORK TEMPLATE

APPENDIX D: PEOPLE IN AID SECURITY POLICY

APPENDIX E: AGENCY COMMENTS

APPENDIX F: OIG COMMENTS

APPENDIX G: AUDIT COMPLETION AND OIG CONTACT
                              SAFETY AND SECURITY BACKGROUND
    INHERENT RISK IN SAFETY AND        Serving overseas as a Peace Corps Volunteer involves inherent risks. Peace
    SECURITY OVERSEAS                  Corps’ “Safety and Security In Depth” webpage states, “Living and
                                       traveling in an unfamiliar environment, having a limited understanding of
                                       local language and culture, and being perceived as well-off are some of the
                                       factors that can put a Volunteer at risk. Many Volunteers experience
                                       varying degrees of unwanted attention and harassment. Petty thefts and
                                       burglaries are not uncommon, and incidents of physical and sexual assaults
                                       do occur.” Various factors beyond the control of the Peace Corps also
                                       affect safety and security, including natural disasters, poor infrastructure,
                                       political conflict, and economic downturn.

                                       The security risks inherent in international service are evident when
                                       comparing typical crime incident rates to those of the Peace Corps. For
                                       example, we compared the Department of Education’s 2008 crime statistics
                                       for 988 public colleges and universities to Peace Corps crime incident
                                       rates. 1 Peace Corps has approximately 8,000 Volunteers overseas. If
                                       compared to public colleges and universities, Peace Corps would rank first
                                       for the most robberies; second for most burglaries, and seventh for most
                                       aggravated assaults. Further, in comparison to crime statistics reported by
                                       countries around the world, Peace Corps Volunteers experience higher rates
                                       of rape and burglary than any of the 86 countries that responded to the
                                       United Nations crime statistics analysis. 2

                                       We recognize the differences in the information, sample size, and source
                                       between Peace Corps Volunteer service and statistics that focus on
                                       educational institutions or national crime data; however, we cite this
                                       information only to emphasize the risks associated with Peace Corps’
                                       service and the need for strategies and policies to mitigate those risks.

    SAFETY AND SECURITY                Assessing Peace Corps’ overseas safety and security program requires
    FRAMEWORK                          consideration of all security management components. The Humanitarian
                                       Policy Group (HPG) is a team of independent researchers and professionals
                                       working on humanitarian issues who have created an overall framework for
                                       safety and security programs in humanitarian organizations (see diagram 1).
                                       Although developed for humanitarian organizations that provide assistance
                                       and reconstruction support in unstable or violent areas, the general
                                       principles of good practice in security management are applicable to the
                                       Peace Corps.

1
  The U.S. Department of Education compiles statistics of alleged criminal offenses reported to campus security authorities or local
police agencies and presents the information on its Office of Post Secondary Information website.
2
  Every two years the United Nations compiles crime statistics on incidents of victimization that have been reported to the
authorities in any given country. The statistics are published in the United Nations Surveys on Crime Trends and the Operations of
Criminal Justice Systems and can be viewed at the United Nations Office on Drugs and Crime website.

Final Report: Peace Corps Volunteer Safety and Security Program                                                                        1
 Diagram 1. The Security Management Framework




 Van Brabant, Koenraad, “Good Practice Review 8: Operational Security Management in Violent Environments,” June 2000, used
 with permission from HGP.




Final Report: Peace Corps Volunteer Safety and Security Program                                                              2
                                     As the security management framework illustrates, an organization must
                                     define its mission and risks, determine the desired security strategy,
                                     establish planning documents to implement that strategy, and incorporate a
                                     post-incident process. The framework presents the three primary security
                                     strategies used by organizations – acceptance, protection, and deterrence.
                                     Peace Corps primarily used the acceptance security strategy, which is
                                     common for humanitarian organizations. According to the HPG, “An
                                     acceptance strategy tries to reduce or remove threats by increasing the
                                     acceptance (the political and social ‘consent’) for your presence and your
                                     work in a particular context....” For this reason, Peace Corps requires
                                     Volunteers to integrate into their communities and staff to liaise with local
                                     officials.

                                     However, having a well defined program aligned to the security
                                     management framework does not ensure an effective safety and security
                                     program. HPG states, “there are a substantial number of ‘soft’ skills
                                     involved that have to do with building relationships, managing agency
                                     image, managing people and self-management.” Competent staff and
                                     properly aligned security positions are necessary to implement the policies
                                     and oversee the security program.

 EVOLUTION OF PEACE CORPS            The Peace Corps asserts that safety and security of Volunteers is the
 SAFETY AND SECURITY                 agency’s highest priority. The agency’s strategic plan states:

                                             The agency has dedicated safety and security personnel at
                                             post and headquarters who are part of an extensive safety
                                             and security support network. The agency will endeavor to
                                             enhance the safety and security of Volunteers by identifying
                                             risks, developing mitigation strategies, educating personnel,
                                             evaluating effectiveness, and incorporating feedback and
                                             appropriate policy revisions. Adequate training of staff and
                                             Volunteers and continual assessment are key factors in
                                             ensuring Volunteers are well-supported to carry out their
                                             work in a safe manner.

                                     Peace Corps revised its safety and security program in response to reviews
                                     from the Government Accountability Office (GAO), interest from Congress
                                     and the public, and the change in the international security environment. In
                                     July 2002, GAO Report No. GAO-02-818, “Initiatives for Addressing
                                     Safety and Security Challenges Hold Promise, but Progress Should Be
                                     Assessed,” identified the following weaknesses.

                                         •   Peace Corps provides broad guidance and support to posts, relying
                                             on them to develop and implement effective practices.
                                         •   Peace Corps’ safety and security framework is unevenly
                                             implemented.

Final Report: Peace Corps Volunteer Safety and Security Program                                                      3
                                            •   Reported crime incidents have increased, but the full extent of crime
                                                against Volunteers is unknown due to underreporting.

                                        As a result of the GAO report, Director Vasquez testified before Congress
                                        in 2004. 3 According to Director Vasquez’s testimony, he “approved a
                                        reorganization that created a new Office of Safety and Security and
                                        increased by 80 people the number of full-time safety and security staff,
                                        ninety-five percent of which are deployed overseas. This staff, which
                                        includes a new associate director for safety and security, a chief compliance
                                        officer, a research psychologist, nine regionally-based safety and security
                                        officers, and a safety and security desk officer for each Peace Corps region,
                                        was restructured to better communicate, supervise, monitor and help set
                                        safety and security policy.”

                                        In addition, Peace Corps revised its Manual section (MS) 270, “Volunteer /
                                        Trainee Safety and Security,” which requires posts to implement the
                                        following six safety and security practices.

                                            •   Monitor, assess, and disseminate safety and security information to
                                                Volunteers and trainees.
                                            •   Continually train Volunteer and trainees on culturally appropriate
                                                lifestyles and appropriate judgment that reduces risks.
                                            •   Inspect Volunteer and trainee sites before their arrival to ensure
                                                housing and work sites are appropriate, safe, and secure.
                                            •   Establish procedures for reporting safety and security incidents.
                                            •   Develop and test emergency action plans.
                                            •   Establish a system to collect contact and whereabouts information
                                                from Volunteers when they are away from their communities.

                                        Since its inception, the Office of Safety and Security has increased its
                                        number of staff with additional regionally-based positions and assumed
                                        additional responsibilities. For example, the responsibility for responding
                                        to violent crimes against Volunteers shifted from the Office of the Inspector
                                        General (OIG) to the Office of Safety and Security in September 2008.

    IMPROVEMENTS ENHANCED               Peace Corps Volunteers generally rate their safety and security and staff
    SAFETY AND SECURITY                 support satisfactory in the biennial Volunteer survey. 4 In the 2008 Biennial
                                        Volunteer Survey, 95% of Volunteers reported that they felt adequately safe
                                        where they lived. The survey also asked Volunteers how satisfied they
                                        were with staff support related to safety and security. On a scale of 1 to 5
                                        (5 being the highest), 91% of Volunteers reported a 3, 4, or 5.




3
    Gaddi Vasquez served as Peace Corps Director from January 23, 2002 to September 7, 2006.
4
    In 2009, Peace Corps began conducting annual Volunteer surveys.

Final Report: Peace Corps Volunteer Safety and Security Program                                                         4
                                       A comparison of incident rates indicates that Peace Corps has improved the
                                       safety and security of Volunteers in several key areas. Table 1 shows a
                                       comparison of several types of incidents using fiscal year (FY) 2009 third
                                       quarter rates and the Peace Corps “Assaults Against Peace Corps
                                       Volunteers 1990-1999” epidemiological analysis. These rates present the
                                       number of incidents per 100 Volunteer and trainees years, except the rape
                                       incidents shown per 1,000 Volunteer and trainee years. Volunteer and
                                       trainee years are the amount of time trainees and Volunteers are in the
                                       country and at risk.


                 Table 1. Comparison of Peace Corps Incident Rates
                                                    FY 2009 Rate as                                Direction of
                    Incident Type     1990’s Rate of July 15, 2009                                   Change
                   Rape                                3.6 A                   1.7                        
                   Major Sexual Assault                0.9 B                   0.3                        
                   Aggravated Assault                  1.0 A                   0.5                        
                   Major Physical Assault              1.7 B                   0.4                        
                   Other Sexual Assault                1.0 B                   2.6                        
                   Other Physical Assault              1.4 B                   1.6                        
                   A
                     Average Incident rate from 1990-1999
                   B
                     Average Incident rate from 1997-1999. The study excluded earlier years because of changes to the
                   classification of incidents.




 MORE IMPROVEMENT NEEDED               Despite creating an Office of Safety and Security and adding security staff,
 TO ENSURE CONSISTENCY AND             Peace Corps continued to rely on posts to implement the safety and security
 EFFECTIVENESS                         policies without providing the oversight and management necessary to
                                       ensure a consistent and effective program. The elements of the security
                                       management framework previously discussed helps to ensure effective
                                       security programs.

                                       Our report identified several areas where Peace Corps could strengthen its
                                       safety and security framework in order to provide Volunteers with the most
                                       effective and competent support. Specifically, we discuss weaknesses in
                                       the intra-agency and personnel competencies in findings A and B. We also
                                       discuss Peace Corps’ security strategy and policies in finding C and the
                                       interagency relationship in finding D.




Final Report: Peace Corps Volunteer Safety and Security Program                                                         5
                               F INDING A. SAFETY AND SECURITY
                                  O RGANIZATIONAL STRUCTURE
          The Peace Corps divided responsibility for overseeing posts’ safety and security programs
          between offices without establishing clear lines of authority and reporting relationships to
          ensure the Office of Safety and Security could properly oversee the agency’s safety and
          security program. According to the GAO, clearly defined areas of authority,
          responsibilities, and reporting relationships are necessary to ensure a positive
          organizational environment and to provide the responsible office with the authority
          necessary to ensure proper implementation of policies and procedures.

          Without clear lines of authority and communication to the posts and regions, Peace Corps
          limited the Office of Safety and Security’s ability to fulfill its mission in overseeing and
          managing Volunteer safety and security, including personnel and budgetary resources. In
          addition, the Office of Safety and Security could not properly manage the agency’s safety
          and security program because Peace Corps had not established an effective process to
          monitor compliance with Peace Corps policies. The following are weaknesses in the
          monitoring process.

              •   Although the Peace Corps safety and security officers (PCSSOs) assessed post
                  compliance with MS 270, the Office of Safety and Security viewed the PCSSO role
                  as advisory and did not assume control of tracking and monitoring implementation
                  of their recommendations.
              •   The agency did not establish clear oversight for PCSSO recommendations and did
                  not follow through on its statement to GAO that the chief compliance officer would
                  track the recommendations.
              •   Peace Corps lacked a clearly defined process to monitor the timeliness of posts’
                  incident reporting.
              •   Post self-assessments were not designed to determine the adequacy of the
                  monitoring processes established at posts.

          Therefore, the agency did not ensure that management was fully informed of how well its
          security program was being implemented and posts implemented inconsistent safety and
          security procedures that did not always comply with the agency’s safety and security
          policies established in MS 270.

          Safety and Security Roles
          Since the 2002 GAO audit, Peace Corps headquarters offices and post safety and security
          roles have continued to change. The agency’s immediate response to the GAO report was
          the revision of MS 270 to incorporate additional security procedures; the establishment of
          the Office of the Safety and Security to oversee the agency’s safety and security program;
          and the increase in the number of regional safety and security officers to provide training



Final Report: Peace Corps Volunteer Safety and Security Program                                          6
              and support to posts. 5 In addition, in 2003 Peace Corps assigned safety and security desk
              officers (SSDOs) that reported to regional directors to monitor posts’ compliance with
              safety and security policies contained in MS 270.

              Although headquarters increased safety and security requirements, some overseas posts did
              not initially hire dedicated safety and security staff to implement MS 270 and gather the
              documentation needed to obtain quarterly confirmation of compliance. As a result, posts
              began tasking administrative, programming, and training personnel with the responsibility
              of ensuring MS 270 compliance by gathering site locator forms, coordinating emergency
              action plans, tracking crime incidents, and monitoring Volunteer locations. By 2004, all
              posts had a safety and security coordinator (SSC) to fulfill this role, which decreased the
              burden on other staff. Some posts transitioned administrative, programming, and training
              personnel into the SSC position that may or may not have had safety and security
              backgrounds.

              The SSCs reported to the country directors, who were ultimately responsible for the safety
              and security of their assigned post. Country directors hired SSCs, implemented MS 270,
              and managed the post’s safety and security funds. The country directors reported to one of
              the three regions. These regions were responsible for overall management and
              implementation of Peace Corps programs. In regards to safety and security, the regions
              communicated safety and security issues to the posts, oversaw posts’ budgets (including
              safety and security funds), and monitored MS 270 compliance.

              The Office of Safety and Security assumed a consultative relationship with posts. For
              example, the Office of Safety and Security PCSSOs served as the security advisors by
              reviewing posts’ compliance with MS 270, training SSCs, and sharing best practices. In
              “Mainstreaming the Organisational Management of Safety and Security,” HPG describes
              this type of relationship as a “security advisor model.” According to HPG,

                       Responsibility for security is clearly vested in the operational management
                       line, but the security focal point provides specialist back-up. This back-up
                       can encompass taking forward policy articulation and security training,
                       participation in interagency initiatives on security, quality control of field-
                       level security plans, security management audits in the field, specialist
                       support around certain crises, security-related equipment assessments, and
                       the provision of advice upon request from the line manager.”

              HPG states that in the security advisor model “security advisers find that their advice
              carries weight, because senior management and the organization as a whole accord much
              importance to security, and because of the demonstrated competence of the postholder(s).”
              It further states, “General organizational good practice demands that authority and
              responsibility are clearly delineated, so that there is no doubt who is accountable for what.”

              Diagram 2 shows the Peace Corps offices and positions involved in safety and security and
              their relationships.
5
    The title of the regional safety and security officer position was later changed to the Peace Corps safety and security officer.

Final Report: Peace Corps Volunteer Safety and Security Program                                                                        7
           Diagram 2. Safety and Security Organizational Structure and Responsibilities
             Regions and Posts                                               Office of Safety and Security               Office of Inspector
                                              Regional                                    Associate Director             General – Investigate
                                              Directors                                    for Safety and                suspected or reported
                                                                                              Security                   allegations of
                                                                                                                         wrongdoing or serious
                                                                                                                         misconduct involving
                        Country Directors             Safety and Security                                                employees, Volunteers,
                        – Responsible for a             Desk Officers –          Chief, Volunteer     Crime Statistics   and trainees.
                           post’s overall             Develop, integrate,           Safety and         and Analysis
                        safety and security          and monitor regional            Overseas        Unit – Maintain
                             program                  safety and security.        Security (now          the crime       Office of Special
                                                                                 called Overseas     reporting system    Services – Serve as a
                                                                                   Operations)       and tracks trends   liaison for families and
                                                                                                                         Volunteers during
               Peace Corps             Associate Peace                                                                   crises or emergencies.
                 Medical               Corps Directors /
                Officers –                 Program                                Peace Corps
             Provide medical              Managers –                               Safety and
                 care and               Involved in site                            Security
                respond to               selection and                             Officers –
              sexual assaults         communicate with                           Advise posts on
                                          Volunteers                               safety and
               Volunteers –                                                      security issues
             Adopt lifestyles             Safety and
             sensitive to host             Security
               country and              Coordinators –
              exercise good           Implement MS 270
                judgment
            *Gray boxes represent overseas positions.
            **Solid line indicates reporting relationships and dotted lines indicate informal lines of communication.



 LINES OF AUTHORITY                     Peace Corps did not establish clear lines of authority and reporting to
                                        ensure the Office of Safety and Security could properly oversee the
                                        agency’s safety and security program.

 OFFICE OF SAFETY AND                   The Office of Safety and Security’s mission is to provide management and
 SECURITY’S MISSION                     oversight of all Peace Corps safety and security in accordance with MS
                                        130, “Office of Safety and Security: Organization, Mission, and
                                        Functions.” GAO Standard for Internal Control in the Federal Government
                                        (Report No. GAO/AIMD-00-21.3.1) states,

                                                     A good internal control environment requires that the
                                                     agency’s organizational structure clearly define key
                                                     areas of authority and responsibility and establish
                                                     appropriate lines of reporting. The environment is also
                                                     affected by the manner in which the agency delegates
                                                     authority and responsibility throughout the
                                                     organization. This delegation covers authority and
                                                     responsibility for operating activities, reporting
                                                     relationships, and authorization protocols.

                                        In response to weaknesses identified in GAO-02-818, Peace Corps stated,
                                        “the Office of Safety and Security will facilitate headquarters’ ability to
                                        effectively supervise and oversee posts’ compliance with MS 270…”

Final Report: Peace Corps Volunteer Safety and Security Program                                                                                     8
                                  Peace Corps defined the authority and management responsibility of the
                                  Office of Safety and Security in MS 130, which assigns the associate
                                  director for safety and security responsibility to:

                                      •    Make proactive recommendations to the Director on safety and
                                           security matters;
                                      •    Advise the Director and senior staff on the agency's domestic and
                                           overseas safety and security activities;
                                      •    Develop and implement agency security policies, procedures, goals
                                           and objectives formulated to maximize safe, secure, and effective
                                           implementation of the Peace Corps' programs and operations; and,
                                      •    Manage the agency's information, personnel, physical, and overseas
                                           security; emergency preparedness; and analysis functions.

                                  MS 130 also assigns the Volunteer Safety and Overseas Security Division
                                  within the Office of Safety and Security the responsibility of ensuring that
                                  staff and Volunteers are adequately trained in their safety and security
                                  responsibilities and are able to implement programs and operations safely
                                  and effectively.

                                  However, Peace Corps limited the Office of Safety and Security’s ability
                                  to fulfill its responsibilities because it did not formally define line of
                                  communication to the regions’ SSDOs and establish adequate oversight of
                                  posts’ safety and security personnel and budgetary resources.

 OFFICE OF SAFETY AND             In the agency’s response to the 2002 GAO report on safety and security,
 SECURITY’S RELATIONSHIP          Director Vasquez stated that the agency was creating an SSDO position
 WITH REGIONS’ SSDOS              within each region whose primary responsibilities were to facilitate and
                                  track compliance with MS 270 and assist in tracking and implementing
                                  PCSSO recommendations. The agency employed three SSDOs to perform
                                  these tasks and additional safety and security responsibilities. However,
                                  the SSDOs provided services similar to the Office of Safety and Security.
                                  Because Peace Corps management had not adequately defined the lines of
                                  authority and communication between the Office of Safety and Security
                                  and the regions’ SSDOs, some posts were unclear on the different roles and
                                  the need for SSDOs.

                                  Headquarters and field staff stated that there is duplication in the SSDO
                                  role and other positions within the Office of Safety and Security,
                                  particularly the PCSSO. The Office of Safety and Security is responsible
                                  for all agency safety and security in accordance with MS 130. Further, the
                                  Office of Safety and Security intranet website states that “The Office of
                                  Safety and Security was established in March, 2003, to foster improved
                                  communication, coordination, oversight, and accountability for all Peace
                                  Corps safety and security efforts.” However, regions have assigned several
                                  functions related to the Office of Safety and Security responsibilities to the

Final Report: Peace Corps Volunteer Safety and Security Program                                                    9
                                     SSDOs, including tracking MS 270 compliance, tracking and assisting with
                                     emergency action plan testing, helping posts implement safety and security
                                     policies and assisting with crises. In addition, the SSDOs served as
                                     communication liaisons even though the Office of Safety and Security was
                                     responsible for improving communication and coordination. For example,
                                     the SSDOs were liaisons between posts and the Office of Safety and
                                     Security. SSDOs also informed the regions of safety and security
                                     information that impacted them; however, the Office of Safety and
                                     Security is located at headquarters along with the regions and could share
                                     information directly.

                                     Feedback received from country directors and SSCs about the value of the
                                     SSDO varied. Many found the position helpful to understand headquarters
                                     operations, share best practices among posts in the region, and provide
                                     security warnings and information about neighboring countries and other
                                     posts in the region. However, some country directors and SSCs were
                                     confused about the role of the SSDO and felt that some of its job
                                     responsibilities overlapped with or should be performed by other
                                     headquarters staff members. When comparing the PCSSO and SSDO
                                     position descriptions we identified potential overlap in the following
                                     areas. 6

                                         •   Analyzing trends
                                         •   Developing recommendations to safety and security issues
                                         •   Providing expert knowledge
                                         •   Providing support for post MS 270 compliance
                                         •   Assisting in crisis management
                                         •   Providing support for post development of emergency plans
                                         •   Sharing and communicating information
                                         •   Providing training
                                         •   Assisting in new country assessments

                                     In October 2007, the Director approved a pilot project to examine the
                                     benefit of converting SSDO positions to the Office of Safety and Security.
                                     After the pilot, the associate director for safety and security recommended
                                     that the SSDO position be assigned to the Office of Safety and Security.
                                     Although satisfied with the result, the regional directors advised against it
                                     and the SSDO remained in the regions to better coordinate with regional
                                     and post staff. However, the agency did not clarify how the SSDO would
                                     maintain the necessary relationship with the Office of Safety and Security
                                     without duplicating roles and responsibilities. In addition, one region
                                     assigned a SSDO as a temporary country director to one of its posts,
                                     requiring her to fulfill the SSDO responsibilities while overseas and

6
    Appendix B provides a full comparison of the primary PCSSO and SSDO responsibilities.


Final Report: Peace Corps Volunteer Safety and Security Program                                                      10
                                  managing a post.

                                  A review of the SSDO position description revealed that some of the
                                  responsibilities that are valued by country directors and SSCs were not
                                  reflected in the SSDO position description. Instead, the position
                                  description includes several functions that overlap with the PCSSO role or
                                  gives the SSDO responsibility for activities that the Office of Safety and
                                  Security should be performing. Although overlap may be necessary in
                                  some areas, a careful analysis of the SSDO position responsibilities should
                                  be conducted. Because the Office of Safety and Security is responsible for
                                  oversight and management of all agency safety and security, it should have
                                  a formal line of communication to the SSDOs and delineate safety and
                                  security responsibilities to avoid unnecessary duplication. This will help
                                  the agency develop a more integrated safety and security program,
                                  determine the appropriate number of safety and security staff, and avoid
                                  spending funds on unnecessary duplication.

 POST SAFETY AND SECURITY         In FY 2008, Peace Corps obligated $11.4 million for safety and security.
 BUDGETARY RESOURCES              PCSSOs sometimes reviewed funds during post assessments, but the
                                  Office of Safety and Security was not formally involved in the posts’
                                  budget planning process. Posts developed their separate budgets using the
                                  integrated planning and budget system. First, each post developed a 3-year
                                  strategic plan and submitted the plan to their region for review. Next,
                                  regional directors presented strategic plan summaries and requests for
                                  budget enhancements or reductions to the Director. In addition, the Office
                                  of Budget and Analysis assisted the regions in putting together any
                                  enhancement and reduction requests. Based on these presentations, with
                                  senior staff input, the Director made the internal plan and budget decisions
                                  for the next FY. Last, regional directors sent the decisions to posts.

                                  In contrast, the Department of State involves posts and headquarters offices
                                  within the Bureau of Diplomatic Security during budget formulation. For
                                  example, the posts’ regional security officers (RSOs) work with the posts’
                                  financial managers to identify security requirements. The Department of
                                  State posts then send their budget plans to the chief financial officer and
                                  the Office of Overseas Protective Operations. This office directs the
                                  development of standards, policies, and procedures associated with
                                  overseas guards, residential security, and high-threat protection programs.
                                  It also determines and recommends funding priorities for its security
                                  programs and works with the chief financial officer to coordinate resource
                                  requirements and budget requests. This process ensures that the office
                                  with authority and expertise over security functions has visibility when
                                  posts formulate budgets and can make recommendations to ensure the
                                  agency has a complete and consistent security program.

                                  Because the Office of Safety and Security did not have adequate oversight


Final Report: Peace Corps Volunteer Safety and Security Program                                                  11
                                  and input in posts’ safety and security funding, it could not properly
                                  manage all of the agency’s safety and security resources in accordance
                                  with MS 130.

 W E R ECOMMEND:

 1. That the Director reevaluate the organizational structure related to the safety and security functions
    and establish clear lines of authority to ensure the Office of Safety and Security can manage the
    agency’s safety and security program.

 2. That the associate director for safety and security work with the associate director of global
    operations to review the roles and responsibilities of the safety and security desk officers and
    clarify the differences between the safety and security desk officers and Peace Corps safety and
    security officers to eliminate unnecessary duplication and ensure the Office of Safety and Security
    has oversight over all safety and security functions in accordance with the Peace Corps manual
    section 130.

 3. That the associate director of global operations develop standard operating procedures for the
    safety and security desk officer position based on the revised roles and responsibilities.

 4. That the associate director for safety and security work with the associate director of global
    operations and the chief financial officer to develop a process to involve the Office of Safety and
    Security in posts’ budget planning for safety and security expenses and in formulating the
    recommendation to the Director for posts safety and security needs.



 TRACKING INTERNAL                Peace Corps lacked a reliable process to track and ensure
 SAFETY AND SECURITY              implementation of PCSSO recommendations.
 REVIEWS

 OFFICE OF SAFETY AND             As part of the agency’s efforts to ensure MS 270 compliance, the PCSSOs
 SECURITY MONITORING              visited posts and made recommendations to improve safety and security.
                                  Although some recommendations are suggestions, PCSSOs also identified
                                  critical recommendations typically required by law or policy or necessary
                                  to safeguard against an immediate threat. However, the Office of Safety
                                  and Security viewed its role as consultative and did not want authority to
                                  ensure the recommendations were implemented. Instead, SSDOs tracked
                                  PCSSO recommendations. The Office of Safety and Security did not
                                  receive regular feedback on the status of their recommendations and were
                                  not consulted to determine if the posts’ actions adequately addressed the
                                  problem. Instead, the Office of Safety and Security relied on its positive
                                  relationships with regions and its confidence that the agency would address
                                  important safety and security concerns.

 CHIEF COMPLIANCE                 MS 123 states, “It is the mission of the Office of the Chief Compliance

Final Report: Peace Corps Volunteer Safety and Security Program                                                 12
    OFFICER                         Officer to develop and coordinate the Peace Corps' compliance system
                                    with Inspector General reports, Congressional mandates, and other
                                    regulations and laws.” In addition, MS 123 states that the chief
                                    compliance officer “reviews submissions from the Regions to ensure
                                    compliance with the MS 270 Volunteer Safety and Support System
                                    Compliance Checklist that all posts submit annually.” Because MS 270 is
                                    the agency regulation for safety and security, the chief compliance officer
                                    should have a clearly defined role in post compliance and resolution of
                                    PCSSO recommendations.

                                    In the agency’s response to the 2002 GAO report on safety and security,
                                    Director Vasquez stated that the agency’s newly appointed chief
                                    compliance officer would “track safety and security recommendations
                                    generated from Inspector General reports, Regional Safety and Security
                                    Officer [PCSSO] evaluations, and other sources….” However, the chief
                                    compliance officer did not oversee PCSSO recommendations as Director
                                    Vasquez stated the position would. Instead, the SSDOs track MS 270
                                    compliance and the PCSSO recommendations. Without involvement by
                                    the chief compliance officer or anyone else, Peace Corps lacked a defined
                                    process to resolve disagreements between the Office of Safety and Security
                                    and regional management.

                                    GAO Internal Control Management and Evaluation Tool (GAO-01-1008G)
                                    supports the monitoring of these recommendations and states that “Internal
                                    control monitoring should assess the quality of performance over time and
                                    ensure that the findings of audits and other reviews are promptly resolved.”
                                    The section on “monitoring and audit resolution” provides more specific
                                    guidance on the elements of an effective monitoring system. 7 Specifically,
                                    GAO recommends that:

                                         •   The agency has a mechanism to ensure the prompt resolution of
                                             findings from audits and other reviews.
                                         •   Agency management is responsive to the findings and
                                             recommendations of audits and other reviews aimed at
                                             strengthening internal control.
                                         •   The agency takes appropriate follow-up actions with regard to
                                             findings and recommendations of audits and other reviews.

                                    We compared Peace Corps practices to the GAO guidance and discovered
                                    that Peace Corps had not implemented some steps necessary to ensure
                                    PCSSO reviews are effective. See Table 2 for a comparison of typical
                                    Peace Corps practices for PCSSO reviews compared to GAO’s suggested
                                    review steps.


7
  Audit Resolution includes the resolution of findings and recommendations not just from formal audits, but also resulting from
informal reviews, internal separate evaluations, management studies, and federally mandated assessments.

Final Report: Peace Corps Volunteer Safety and Security Program                                                                   13
    Table 2. Peace Corps Monitoring Controls
                   GAO Guidance 8                                           Peace Corps’ Level of Compliance
     Corrective action is taken or improvements made within         The recommendations did not always include timeframes,
     established timeframes to resolve the matters brought to       and the date the recommendation is closed was not always
     management’s attention.                                        documented in the SSDO’s tracking spreadsheets.

     In cases where there is disagreement with the findings or      Regions made the final decision about whether a
     recommendations, management demonstrates that those            recommendation is implemented. If there was a
     findings or recommendations are either invalid or do not       disagreement between the Office of Safety and Security and
     warrant action.                                                the regions, the Office of Safety and Security stated that it
                                                                    could seek help from the Chief of Staff.

     Executives with the proper authority evaluate the findings     Because regions had budget authority, they determined what
     and recommendations and decide upon the appropriate            action, if any, would be taken. The Office of Safety and
     actions to take to correct or improve control.                 Security did not have the authority to make these decisions.

     Desired internal control actions are followed up on to         The SSDO tracking spreadsheet did not facilitate easy
     verify implementation.                                         tracking of implementation activities.

     Management and auditors follow up on audit and review          The SSDOs determined whether a recommendation could be
     findings, recommendations, and the actions decided upon        closed; PCSSOs were not involved in closing out
     to ensure that those actions are taken.                        recommendations and did not follow-up to determine if
                                                                    recommendations had been closed.

     Top management is kept informed through periodic               The SSDOs did not provide periodic reports to The Office of
     reports on the status of audit and review resolution so that   Safety and Security on the status of PCSSO
     it can ensure the quality and timeliness of individual         recommendations.
     resolution decisions.



    ADEQUACY OF REGIONAL                The tracking and implementation of PCSSO recommendations has been an
    TRACKING                            ongoing concern for the OIG. The August 2008 OIG program evaluation
                                        report on Volunteer safety and security included the finding “Senior
                                        regional management has not adequately monitored the implementation of
                                        PCSSO recommendations.” The report stated that neither “the Office of
                                        Safety and Security nor the regional management could verify the extent to
                                        which country directors implemented PCSSO recommendations.” Peace
                                        Corps continued to lack an adequate monitoring process because no one
                                        was tracking and following up on open recommendations in a systematic
                                        way to ensure they were addressed. Our analysis of each region’s SSDO
                                        tracking spreadsheets and a comparison to actual PCSSO reports revealed
                                        the following problems:

                                             • Tracking spreadsheets did not include all critical recommendations.
                                             • Critical recommendations in 2007, based on MS 270 and Department
                                               of State security regulations, had not been fully addressed as of
                                               November 2009.


8
 The table does not contain the full text; instead, it contains excerpts from GAO’s Internal Control Management and Evaluation
Tool (GAO-01-1008G) that are most relevant to tracking and monitoring PCSSO recommendations.

Final Report: Peace Corps Volunteer Safety and Security Program                                                                     14
                                       • Some of the tracking spreadsheets were incomplete and did not
                                         indicate the status of the recommendations.
                                       • The SSDOs did not consistently use dates to indicate when the
                                         recommendation was closed, how long it took to close the
                                         recommendation, and/or follow-up dates.
                                       • The tracking spreadsheets did not list who closed the
                                         recommendation.
                                       • The tracking spreadsheets did not document the post or agency
                                         corrective actions or how implementation was verified.

    CONCLUSION                     The agency did not adequately monitor and implement PCSSO
                                   recommendations and did not follow through on its statement that the chief
                                   compliance officer would track the recommendations. Because the Office
                                   of Safety and Security did not want to jeopardize their consultant
                                   relationship with the posts by having PCSSOs serve as compliance officers
                                   or internal auditors, it did not want to take control over tracking and
                                   enforcing their recommendations. Further, the regions assumed
                                   responsibilities for overseeing implementation of safety and security
                                   policies and PCSSO recommendations because they controlled the budget
                                   and resources needed to ensure compliance. However, the regions were
                                   hesitant to make PCSSO recommendations mandatory because they did not
                                   believe that all of the PCSSOs have a sufficient level of safety and security
                                   knowledge to make meaningful recommendations. 9 Without a formalized
                                   process to track and enforce critical PCSSO recommendations, the agency
                                   could not effectively ensure that safety and security shortcomings were
                                   addressed. As a result, management permitted posts to perpetuate security
                                   weaknesses and fail to comply with MS 270 and Department of State
                                   security regulations.

    W E R ECOMMEND:

    5. That the Director ensures that Peace Corps develop and implement a process that adequately tracks
       Peace Corps safety and security officer recommendations and ensures that corrective actions are
       taken in a timely manner. The process should define roles and responsibilities of responsible
       personnel and hold them accountable for implementation.



    MONITORING TIMELINESS          Peace Corps lacked a clearly defined process to monitor the timeliness of
    OF INCIDENT REPORTING          posts’ incident reporting.

                                   One of the SSDO responsibilities was to monitor the timeliness of posts’
                                   incident reporting. Posts must report incidents timely to ensure

9
 Information obtained during this audit was supplemented by information in the August 2008 OIG report entitled “Final Program
Evaluation Report: Volunteer Safety and Security.”

Final Report: Peace Corps Volunteer Safety and Security Program                                                                 15
                                  management is fully informed of current situations and can provide the
                                  necessary support and oversight. It is also important that the RSO in
                                  country is aware of incidents. MS 270 states, “The country director is
                                  responsible for establishing protocols for responding to all safety and
                                  security incidents reported by V/Ts.… Post is responsible for relaying
                                  information regarding any incidents affecting [Volunteer/Trainee] safety
                                  and security to the appropriate office(s) at [Peace Corps/Washington].”
                                  For serious crimes, posts are instructed to immediately contact
                                  headquarters. Although the MS 270 does not define timely reporting, the
                                  Crime Incident Reporting System user manual requires posts to report
                                  incidents within three business days.

                                  Posts continued to submit incident reports more than three days beyond the
                                  required reporting period, even though the SSDO monitors the timely
                                  reporting of incidents and will contact posts if they repeatedly submit late
                                  information. We reviewed all 2,441 incidents reported through the Crime
                                  Incident Reporting System since its implementation in April 2008. Posts
                                  may have up to seven days to report an incident after considering the three
                                  business days plus weekends and holidays. We identified 241 records
                                  (10%) not submitted to headquarters within seven days after the incident
                                  was reported. Therefore, SSDOs and the Office of Safety and Security
                                  need to formally require that posts submit reports within a specific
                                  timeframe and hold posts accountable to those standards.

 W E R ECOMMEND:

 6. That the associate director of global operations develop a clearly defined process that identifies and
    establishes corrective actions for posts that repeatedly submit incident reports late.

 7. That the associate director of global operations reiterate to the regions and all posts the importance of
    timely reports and formalize the abovementioned process through a policy memorandum or Peace
    Corps Manual section


 POST COMPLIANCE WITH             The Office of Safety and Security and the regions did not establish an
 SAFETY POLICIES                  effective assessment process to ensure posts fully complied with safety
                                  and security regulations.

 MS 270 COMPLIANCE                The MS 270 compliance self-certification process began in 2003 as an
 PROCESS                          effort to track posts’ progress developing and implementing their
                                  Volunteer safety support system. In 2008, most posts had reported full
                                  compliance with MS 270. The process primarily required posts to respond
                                  whether they had implemented specific policy requirements, such as post
                                  safety and security policies, site locator forms, annual risk assessments,
                                  Volunteer safety and security training, incident report protocols, and
                                  current emergency action plan.

Final Report: Peace Corps Volunteer Safety and Security Program                                                  16
                                  Although the checklists indicated whether posts had pertinent
                                  documentation and policies, it was not effective in determining the
                                  adequacy of those policies and procedures. Reoccurring safety and
                                  security findings identified by the OIG and the PCSSOs demonstrate that
                                  posts were not fully compliant with MS 270 because the processes posts
                                  implemented were insufficient.

 REPEAT OFFICE OF                 OIG reports found that some posts continue to not fully implement safety
 INSPECTOR GENERAL                and security policies and procedures. Based on a review of OIG
 FINDINGS                         evaluations from FYs 2004 through 2009, we identified numerous
                                  reoccurring evaluation findings regarding post safety and security. Table 3
                                  shows the number of evaluation reports that identified safety and security
                                  issues.


    Table 3. Number of Evaluation Reports that Identified Safety and Security Issues
                                 Safety and Security Issue                          Reports
     Contact information/site locator forms that were inaccurate or incomplete         9
     Posts were not thoroughly completing housing/sites inspections                    8
     Inadequate emergency action plans or evacuation plans                             7
     Various cities where Volunteers were located were considered unsafe
                                                                                       7
     (particularly urban areas, including Peace Corps office locations)
     Posts had inadequate or non-existent emergency action plan testing                6
     Volunteers engaged in unsafe behaviors or were not prepared for emergencies       6
     Travel or transportation methods placed Volunteers at risk                        6
     Volunteers were underreporting crime incidences                                   5
     Volunteers were not following the out-of-site policy or the policy was unclear    5


                                  OIG audits also contain reoccurring findings related to safety and security.
                                  For example, Peace Corps did not consistently ensure contractors obtained
                                  security clearances and signed intelligence background information
                                  certification as required by MS 743. Our review of 69 post audits from the
                                  last five years identified 26 that contained findings regarding untimely
                                  security clearances and updates and 34 that contained findings regarding
                                  contractors not signing intelligence background information certificates.
                                  These two forms are necessary to show that posts conduct adequate review
                                  of personnel to determine whether they are trustworthy and suitable to
                                  work for the Peace Corps.

                                  Although Peace Corps recently updated its MS 743, it did not include
                                  responsibilities for a management office to ensure country directors request
                                  and obtain the required personal services contractors’ information. To
                                  oversee posts’ compliance, Peace Corps management must assign

Final Report: Peace Corps Volunteer Safety and Security Program                                                  17
                                  responsibilities for reviewing and tracking background investigations and
                                  intelligence background information certifications to a headquarters office
                                  to ensure that posts comply with the Peace Corps Manual.

 REPEAT PCSSO FINDINGS            As previously discussed in the “Tracking Internal Safety and Security
                                  Reviews” section of this report, the PCSSOs conduct reviews of posts’
                                  safety and security programs and identify weaknesses. Based on a
                                  selection of 10 PCSSO reports, we identified reoccurring safety and
                                  security findings regarding MS 270 compliance. The reports identified
                                  deficiencies in emergency action plan tests; safety and security training;
                                  housing criteria and site development; and crime response. The review of
                                  reports demonstrates that PCSSOs continue to identify weaknesses in
                                  posts’ compliance with MS 270.

 ADMINISTRATIVE                   In May 2009, the Office of Safety and Security and regions decided to
 MANAGEMENT CONTROL               incorporate MS 270 content into the Administrative Management Control
 SURVEY                           Survey (AMCS). AMCS is a self-assessment tool that originated in the
                                  mid-1980s in response to the Office of Management and Budget Circular
                                  A-123, “Management Accountability and Control.” This circular required
                                  federal agencies to have formal methods for evaluating internal control
                                  processes and provided “guidance to Federal managers on improving the
                                  accountability and effectiveness of Federal programs and operations by
                                  establishing, assessing, correcting, and reporting on management controls.”
                                  However, Peace Corps did not require all posts to use AMCS.

                                  The decision to incorporate MS 270 requirements into AMCS was logical
                                  to reduce redundancy and better assess all posts strengths and weaknesses
                                  collectively. However, the information provided to management through
                                  AMCS must flow to each responsible office to ensure that authorized
                                  personnel can make informed decisions on agency policies and practices.
                                  Further, Circular A-123 states, “Agency managers should continuously
                                  monitor and improve the effectiveness of management controls associated
                                  with their programs.” Therefore, as managers of the safety and security
                                  program, the Office of Safety and Security must be involved in the AMCS
                                  process and receive the safety and security assessments to determine
                                  whether posts are successfully implementing safety and security policies.

 CONCLUSION                       The MS 270 compliance process served as a self-assessment tool for posts
                                  to determine whether they had implemented all elements of MS 270. The
                                  self-assessment did not provide sufficient detail to determine whether those
                                  elements were adequate. As a result, OIG and PCSSO reviews repeatedly
                                  reported weaknesses in posts’ policies, documentation, and practices.

                                  With the inclusion of MS 270 requirements in AMCS, the Office of Safety
                                  and Security must ensure the self-assessment questions adequately address
                                  the weaknesses identified by the safety and security audits and reviews. To


Final Report: Peace Corps Volunteer Safety and Security Program                                                  18
                                  be an effective control mechanism for ensuring compliance with agency
                                  policies, the AMCS questions must require posts to assess the adequacy
                                  instead of the existence of policies and documentation. Further, AMCS
                                  should be reviewed and revised periodically to incorporate questions that
                                  address the safety and security issues identified by the OIG and PCSSOs.
                                  This will help posts ensure compliance with agency policies and provide
                                  management with more relevant information.

 W E R ECOMMEND:

 8. That the chief compliance officer, in conjunction with the associate director for safety and security,
    establish a process to identify reoccurring safety and security issues and to take necessary steps to address
    these issues through additional guidance, clarification, or other action.

 9. That the associate director for safety and security, in conjunction with the associate director of global
    operations, develop a process to track post compliance with the Peace Corps policies requiring post staff to
    have background investigations and signed intelligence background information certifications.

 10. That the associate director of global operations require posts to use the Administrative Management
     Control Survey, or at a minimum the safety and security section, to ensure that posts continue to review
     and assess compliance with Peace Corps Manual section 270.

 11. That the Director provide the Office of Safety and Security with the mandate, authority, and resources to
     review post responses to the safety and security sections of the Administrative Management Control
     Survey and use them to provide guidance on areas of weakness and provide assistance, as appropriate,
     when posts report non-compliance.




Final Report: Peace Corps Volunteer Safety and Security Program                                                 19
                            F INDING B. C OMPETENCY OF SAFETY
                                  AND SECURITY P OSITIONS

          The Peace Corps did not adequately align safety and security personnel’s roles and
          responsibilities with the agency’s stated priority of safety and security, the Office of Safety
          and Security’s mission, and the field’s needs and expectations. Furthermore, the agency
          did not consistently hire people with the necessary skills and experience and delineate their
          roles and responsibilities. Specifically, Peace Corps did not:

              •   reassess the role of the SSC since its inception;
              •   clearly define the necessary skills and abilities of the PCSSOs and ensure they
                  fulfilled the needs of the posts; and
              •   standardize training and development for safety and security positions.

          As a result, the usefulness of the safety and security positions varied depending on the
          skills of individuals and needs of the posts. In addition, Peace Corps could not ensure that
          personnel were qualified to handle all safety and security issues that might arise. This
          contributed to confusion within the agency and with other federal agencies during security
          situations, which sometimes hindered crime incident response.


 SAFETY AND SECURITY                SSC job responsibilities, related skills, staffing levels, and pay grade were
 COORDINATOR ROLES                  inconsistent because PC/headquarters had not reassessed the SSC roles to
                                    ensure they were consistent with the change in posts’ needs.

                                    SSC skills, experience, and pay grade varied from post to post. At many
                                    posts, the position has evolved from an administrative position and now
                                    requires skilled individuals that have law enforcement, military, or other
                                    related safety and security background. In addition to training,
                                    communication, and documentation responsibilities, many country directors
                                    rely on SSCs to interface with local law enforcement officials and guide
                                    Volunteers through the investigative and judicial processes if a crime occurs.
                                    Despite this, headquarters personnel still refer to the position as a clerical
                                    one, which is reflected in their pay grade and staffing levels.

                                    GAO’s Internal Control Management and Evaluation Tool (GAO-01-
                                    1008G) section on Commitment to Competence provides the following
                                    guidance:

                                        The agency [performs] analyses of the knowledge, skills, and abilities
                                        needed to perform jobs appropriately. Consider the following:

                                        •   The knowledge, skills, and abilities needed for various jobs have
                                            been identified and made known to employees.

Final Report: Peace Corps Volunteer Safety and Security Program                                                     20
                                        •   Evidence exists that the agency attempts to assure that employees
                                            selected for various positions have the requisite knowledge, skills,
                                            and abilities.

 JOB RESPONSIBILITIES AND           The SSC position was created around 2002, and its initial responsibilities
 RELATED SKILLS                     were primarily clerical. In the agency’s response to the 2002 GAO report on
                                    safety and security, Director Vasquez stated that the SSC position would be
                                    responsible for maintaining MS 270 compliance documentation and
                                    following up with other post staff to ensure timely submission of required
                                    documentation. This is reflected in the statement of work template for the
                                    SSC position, which states, “the role of the incumbent is to augment and
                                    support, not assume responsibility for, senior staff security-related
                                    functions.” It further states that the SSC’s primary responsibility is to
                                    monitor and maintain appropriate documentation regarding the post’s
                                    compliance with MS 270. The statement of work, which can be customized
                                    by each post, lists the SSCs’ key responsibilities in the areas of MS 270
                                    compliance, information sharing, training staff and Volunteers, site selection
                                    and monitoring, incident reporting and response, and emergency action plan
                                    development and testing (see appendix C for the complete SSC statement of
                                    work). The statement of work does not list any specific skills, background,
                                    or experience needed except to say that the person “must have sufficient
                                    English and local language skills.”

                                    Some region staff, country directors, and SSCs stated that the position
                                    has evolved; many posts have expanded the SSC’s responsibilities to
                                    include more non-clerical duties, and the country directors view the
                                    SSC as a member of the senior staff at the post. Country directors and
                                    SSCs we interviewed expressed concerns that if the SSC is an
                                    administrative role, critical Volunteer safety and security functions will
                                    not receive sufficient attention.

                                    Over half (13 of 25) of the country directors and SSCs we interviewed said
                                    that SSCs need to have a law enforcement background. Although local law
                                    enforcement, not SSCs, are responsible for conducting criminal
                                    investigations, they stated that SSCs need to have an understanding of the
                                    investigative and judicial processes to ensure Volunteers receive the
                                    necessary support. In countries where police investigative functions lack
                                    sufficient resources, SSCs with a law enforcement background and an
                                    established relationship with local authorities are important.

                                    Accordingly, the four posts in our sample of 12, that added a skills,
                                    background, or experience section to the statement of work; all listed law
                                    enforcement or security experience and/or knowledge of local laws as
                                    requirements. Eight of the 13 SSCs we interviewed had a military, law
                                    enforcement, or safety and security background. However, other SSCs did
                                    not have this background because some posts, along with regions, have

Final Report: Peace Corps Volunteer Safety and Security Program                                                    21
                                      focused on hiring someone who can fulfill the SSC’s administrative duties.
                                      The Office of Safety and Security, regions, and posts do not have a common
                                      understanding of the SSC role and the skills and backgrounds necessary to
                                      fulfill the position’s responsibilities. As a result, the SSC responsibilities
                                      were not standardized and Peace Corps could not ensure consistent support
                                      of Volunteers.

                                      In addition, the inconsistency in SSC responsibilities contributed to
                                      misunderstandings with the RSOs who oversee the safety and security of
                                      U.S. embassies and often work with the SSC or other Peace Corps staff
                                      members if a Volunteer is the victim of a crime. Many RSOs rely on SSCs
                                      to interact with both police and Volunteers if a crime incident occurs. RSOs
                                      were concerned that without security backgrounds SSCs could not
                                      adequately train Volunteers, properly respond to crimes, and clearly
                                      document crime incidents. On two separate occasions in FY 2009, an RSO
                                      reported that the response by the SSC after a violent crime incident was
                                      inadequate because they lacked local contacts or knowledge of the criminal
                                      investigation and judicial processes. Therefore, it is essential that Peace
                                      Corps clearly define SSC responsibilities and communicate the roles to all
                                      individuals involved in Volunteer safety and security.

 PAY GRADES                           Similar to an SSC’s skills and responsibilities, SSC pay grades varied from
                                      post to post. The OIG compared SSC pay grades among posts and analyzed
                                      the SSC pay grades in relationship to programming staff, but did not conduct
                                      a work analysis of the position. The OIG recognizes that SSCs and
                                      programming staff members have different responsibilities. However, some
                                      country directors, SSCs, and PCSSOs stated that SSC pay is a problem
                                      because they have assumed increased responsibilities but their pay grade had
                                      not increased. Accordingly, 7 of the 12 country directors interviewed stated
                                      that the SSC pay grades need to reflect the increased importance and
                                      responsibilities of the job.

                                      A review of SSC grades revealed that they range from a 6 to a 10
                                      worldwide. 10 Over 40% of the SSCs are at a pay grade 8 level. Some
                                      variance is reasonable as experience and time on the job affects the pay
                                      grades. However, the SSCs pay grade level typically fell below that of
                                      program managers and associate Peace Corps directors (APCDs), and at 13
                                      posts SSCs were graded lower than some or all of the people in
                                      programming support roles. Although the OIG recognizes that a direct
                                      comparison of staff pay grades may be misleading because of differences in
                                      job responsibilities, the data analysis and feedback from some country

10
  SSCs and most programming staff are personal services contractors and therefore are not part of the foreign service or general
schedule pay scales. However, we used foreign service national equivalent grade levels for this comparison because MS 743,
“Procurement of Personal Services of Host Country Residents by Contract” states, “The range of compensation in the applicable
State Department Local Compensation Plan may be used as well for determining fair and reasonable base compensation” for
personal services contractors.

Final Report: Peace Corps Volunteer Safety and Security Program                                                                    22
                                    directors indicated that the grading structure created by headquarters is not
                                    in line with the SSCs elevated responsibilities at multiple posts. Their
                                    expanded roles sometimes require the SSC to liaise with government and
                                    local law enforcement officials, develop and deliver post security trainings,
                                    and participate in Volunteer site development. According to PCSSOs,
                                    country directors and SSCs, the SSC pay grade affects the post’s ability to
                                    retain qualified SSCs and may hinder the SSCs from gaining full
                                    cooperation from other staff.

 STAFFING LEVELS                    When the position was initially created, each post was provided funding for
                                    one SSC position regardless of the number of Volunteers. Headquarters
                                    staff confirmed that there is still no SSC to Volunteer ratio. With the
                                    exception of two posts, each post continues to have one SSC. 11 Although
                                    this may have been adequate when the position was primarily clerical, many
                                    SSCs now interact with Volunteers, respond to incidents, and visit Volunteer
                                    sites. As the position’s responsibilities have increased and the number of
                                    Volunteers has grown, the SSC’s workload has also increased. According to
                                    the data provided in Peace Corps’ Congressional Budget Justification for
                                    FY 2010, the number of Volunteers at each post ranged from 11 to 294, and
                                    there were 7,298 total Volunteers as of September 30, 2009. 12 This is an
                                    average of approximately 108 Volunteers per SSCs (and safety and security
                                    assistants at post). In contrast, posts usually have numerous programming
                                    staff members. Although field staff recognized that safety and security
                                    responsibilities are not the sole responsibility of the SSC and should be
                                    shared among the staff, they also stated that the SSC position is a demanding
                                    job with a heavy workload. As a result, several country directors and SSCs
                                    stated that some posts may need additional safety and security staff,
                                    especially considering the anticipated growth in the number of Volunteers.

 CONCLUSION                         Peace Corps had not standardized the SSC roles and responsibilities to
                                    ensure consistent support to Volunteers, which created discrepancies in the
                                    SSC pay grades and staffing numbers. Although some headquarters
                                    personnel considered the SSC position as a clerical role, many posts have
                                    augmented the SSC’s roles and responsibilities to provide more security
                                    expertise. Additionally, RSOs have expectations that some SSCs did not
                                    have the skills or training to meet.

                                    The OIG acknowledges that the agency views safety and security as a shared
                                    responsibility among all post staff, and the OIG is not in the position to
                                    determine which staff members should assume responsibility for various
                                    safety and security elements. However, some posts require more safety and
                                    security experience from field staff than the current structure provides. To

11
   PC/Morocco has an SSC and an assistant SSC. PC/Honduras has an SSC and a part-time staff member that provides
administrative safety and security support.
12
   This number does not include Peace Corps Response Volunteers and United Nations Volunteers. Including those Volunteers,
there were 7,340 Volunteers as of September 30, 2009.

Final Report: Peace Corps Volunteer Safety and Security Program                                                              23
                                    address this problem, the agency must reassess what is required for field
                                    staff to deliver the essential safety and security elements and ensure that the
                                    agency’s structure, including position descriptions of all post staff members,
                                    pay grades, and staffing levels, support field staff.

 W E R ECOMMEND:

 12. That the associate director of global operations work with the associate director for safety and security
     and post personnel to review the safety and security coordinator position and determine the needed
     safety and security coordinator roles and responsibilities.

 13. That the associate director of global operations, in coordination with the general counsel, update the
     safety and security coordinator position’s statement of work and define minimum skills and education,
     as well as the position descriptions for all personnel at post with safety and security responsibilities,
     based on the review of safety and security coordinator roles and responsibilities.

 14. That the associate director for safety and security work with the associate director of global operations
     and post personnel to determine an appropriate pay grades for safety and security coordinators based on
     the updated review of the safety and security coordinator role and responsibilities.

 15. That the associate director for safety and security work with the associate director of global operations
     and post personnel to assess the need for additional safety and security personnel at posts and develop a
     standard evaluation process for determining the required number of staff.



 PEACE CORPS SAFETY AND             PCSSO skills and abilities varied, which created different expectations and
 SECURITY OFFICERS                  caused some people to question the value of the position.

                                    In the agency’s response to the 2002 GAO report on safety and security,
                                    Director Vasquez stated that the agency would hire additional regional safety
                                    and security officers (subsequently titled PCSSOs) who would conduct
                                    safety and security assessments at posts, provide recommendations for
                                    improvement, and be a resource to posts in fulfilling MS 270 requirements.
                                    PCSSOs provide support to country directors in their security program,
                                    assess the post’s security environment and risk management strategy,
                                    provide support to local law enforcement officers investigating violent
                                    crimes committed against PCVs, and assist with crisis management.
                                    Currently, the agency employs seven PCSSOs, six of whom are located in
                                    the field and one is currently working at headquarters. Three additional
                                    PCSSO positions are vacant. These PCSSOs have varying backgrounds and
                                    different approaches to the job.

 NEED FOR THE PCSSO                 The Office of Safety and Security views the PCSSO role as a consultative
 POSITION                           one, and they rely on invitations from country directors to visit and assess
                                    posts (see finding A). The Office of Safety and Security intranet website

Final Report: Peace Corps Volunteer Safety and Security Program                                                    24
                                     refers to the PCSSOs as safety and security consultants, and MS 130 states
                                     that they “provide support to Country Directors in all areas of safety and
                                     security.” They also participate in new country entry assessments, assist
                                     posts with crisis management, and review the physical security of facilities
                                     and staff residences.

                                     Feedback from country directors, SSCs, and RSOs concerning the usefulness
                                     of the PCSSO role varied. Nineteen of 25 country directors and SSCs
                                     reported that they appreciated the support they received from the PCSSOs.
                                     However, other country directors and SSCs do not believe the PCSSO
                                     position is necessary. Some commented that they had to create work for the
                                     PCSSO even when the post did not need additional support. This view of
                                     the PCSSOs occurred most often at posts that have SSCs with a strong
                                     security background or in countries where the post can rely on local law
                                     enforcement. Some regions stated that the usefulness of the PCSSO varies
                                     and depends on who is serving in the role.

                                     Our review of PCSSO reports from 2008 and 2009 shows that PCSSOs
                                     continue to identify safety and security gaps and provide useful advice to
                                     some posts. However, the number of reports produced by each PCSSO
                                     varied. In the two-year period, one PCSSO produced 15 post assessment
                                     reports while another PCSSO produced only one report. 13 Although post
                                     assessments are not the sole focus of the PCSSO’s job, the variance raises
                                     questions about the frequency with which country directors are requesting
                                     PCSSO support and the consistency with which PCSSOs document the
                                     identified security gaps.

                                     As discussed in Finding A, headquarters and post staff also noted that there
                                     is an overlap in roles and responsibilities of PCSSOs and SSDOs. Although
                                     some country directors and SSCs understand the distinction between the
                                     PCSSO and SSDO roles, others reported that they believed the positions are
                                     duplicative and would prefer that the funds for some of those staff roles be
                                     made available for SSC training or pay grade increases.

 JOB RESPONSIBILITIES AND            The Office of Safety and Security did not ensure that all PCSSOs had
 RELATED SKILLS                      responsibilities and skills that enabled them to support posts’ safety and
                                     security needs. Because PCSSOs provide training and consultative services
                                     to their posts, the Office of Safety and Security highlighted their need for a
                                     strong training background. They also emphasized the need for PCSSOs to
                                     understand the Peace Corps approach to safety and security, but they did not
                                     believe that a security or law enforcement background was always necessary
                                     because it could hinder the PCSSO’s ability to understand Peace Corps’
                                     security strategy, the acceptance model. Contrary to this opinion, the job
                                     description stated that PCSSOs need knowledge of security administration

13
 This analysis did not include newly hired PCSSOs or people who were not in the field the majority of the two-year timeframe.
One PCSSO included in this analysis started the position in May 2008.

Final Report: Peace Corps Volunteer Safety and Security Program                                                                 25
                                    and criminal investigative techniques and must have enough security
                                    knowledge to function as a technical authority.

                                    Further, country directors and SSCs relied on the PCSSO to help train local
                                    staff, particularly when a new SSC was hired, and they expected the PCSSO
                                    to be a subject matter expert in safety and security. Especially for posts with
                                    an experienced SSC, a PCSSO with a strong security background was
                                    necessary to provide useful training and expert advice. RSOs who were
                                    familiar with the PCSSO role also agreed that PCSSOs should have
                                    technical expertise in security or law enforcement similar to the RSOs.

                                    The PCSSOs’ ability to meet these varied expectations was mixed because
                                    they had different professional backgrounds. While some PCSSOs had
                                    military, law enforcement, or other security-related backgrounds, others had
                                    skills in training and consulting. These training skills are useful for part of
                                    the PCSSO role, but do not ensure they can “function as a technical
                                    authority” as stated in their job description. The OIG identified times when
                                    a crime occurred and the RSO who worked with Peace Corps staff to
                                    respond to an incident expected the PCSSO to assume a greater role in the
                                    crime response process. However, the PCSSO lacked the professional
                                    contacts and knowledge of the criminal investigation and judicial processes
                                    needed to provide effective support.

                                    In comparison, Latter-day Saints Volunteer Services sends missionaries and
                                    humanitarian workers to over 100 countries and has an office within the U.S.
                                    with 15 security professionals. All of these individuals have extensive law
                                    enforcement, military, or intelligence backgrounds, and have been trained in
                                    response techniques and security functions.

                                    The different expectations that field staff have of the PCSSO role coupled
                                    with variability in PCSSO skills and background creates a situation where it
                                    is hard to fulfill the numerous, varying expectations people have of the
                                    position. As a result, some people questioned the value of the role or expect
                                    the PCSSOs to perform work that does not align with their position
                                    description and skills.

 GEOGRAPHIC PLACEMENT               PCSSOs live and work overseas and are assigned to a sub-region. Some
                                    country directors stated that having the PCSSOs live in the field helped them
                                    better understand the cultural context and learn or maintain local language
                                    skills. While this arrangement is preferable for some posts, others believe
                                    the PCSSOs should be located at headquarters in Washington, D.C. or in
                                    other U.S. cities such as Miami, Florida. We analyzed the costs of placing
                                    the PCSSOs overseas and compared this to the cost if they were located in
                                    Washington, D.C. When living abroad, the agency incurs costs for housing,
                                    shipping of goods, dependent care, and other miscellaneous expenses. The
                                    agency would not incur these costs if the PCSSOs were located in


Final Report: Peace Corps Volunteer Safety and Security Program                                                       26
                                    Washington, D.C. or another U.S. location, although their salaries would rise
                                    because of the higher locality pay. Based on data from the 2008 operations
                                    plan, we determined that having all of the PCSSOs live abroad costs the
                                    agency approximately $185,000 more per year than if they worked at
                                    headquarters. It should be noted that additional travel costs may be incurred
                                    if PCSSOs are located in Washington, D.C.; those costs are unknown and
                                    were not included in the analysis. However, this analysis, along with
                                    feedback from regions and posts, indicates that the Office of Safety and
                                    Security should revaluate its PCSSO placements to ensure the most cost
                                    effective alternative that meets Peace Corps requirements and supports the
                                    overarching safety and security policy.

 CONCLUSION                         Because of the variability in headquarters and posts’ expectations of the
                                    PCSSO role and the PCSSOs’ ability to meet these expectations based on
                                    their experience and skill sets, some posts and regional staff question the
                                    agency’s need for PCSSOs. Further, the OIG determined that there is still a
                                    need for someone to provide technical expertise in areas related to safety and
                                    security, because PCSSOs continue to identify safety and security
                                    weaknesses when they visit posts,. However, some PCSSOs may not be
                                    equipped to provide the support needed by posts and may not have the
                                    technical expertise to train SSCs that already have a background in security
                                    or law enforcement. As the agency considers increasing the number of
                                    PCSSOs, the Office of Safety and Security should reconsider the role and
                                    the placement of its PCSSOs to ensure that all PCSSOs have the basic skills
                                    needed for the position, increase standardization, clarify expectations, and
                                    make sure agency funds are not being wasted.

 W E R ECOMMEND:

 16. That the associate director for safety and security work with the associate director of global operations
     to reassess the Peace Corps safety and security officer roles and responsibilities and revise the job
     description accordingly.

 17. That the associate director for safety and security work with the associate director of global operations
     to analyze whether the posting of each Peace Corps safety and security officer enhances safety and
     security and is the most efficient, effective, and cost effective placement. If needed, relocate Peace
     Corps safety and security officers accordingly.




Final Report: Peace Corps Volunteer Safety and Security Program                                                  27
 TRAINING                           Peace Corps did not standardize training for SSCs and PCSSOs to ensure
                                    that they had the skills to carry out their responsibilities.

 STANDARD TRAINING AND              GAO Internal Control Management and Evaluation Tool (GAO-01-1008G)
 DEVELOPMENT PROGRAMS               section on Commitment to Competence provides the following guidance:

                                        The agency provides training and counseling in order to help
                                        employees maintain and improve their competence for their jobs.
                                        Consider the following:

                                            •   There is an appropriate training program to meet the
                                                needs of all employees.

                                            •   The agency emphasizes the need for continuing training
                                                and has a control mechanism to help ensure that all
                                                employees actually received appropriate training.

                                    The 2002 GAO report on safety and security stated that the agency had
                                    “unclear guidance and weaknesses in safety and security training for staff.”
                                    The agency responded by stating that newly developed MS 270
                                    Implementation Procedures had been developed and would be included in
                                    the training for safety and security staff. However, SSCs do not participate
                                    in those trainings. Furthermore, the agency’s response to the GAO report
                                    stated that the agency would establish routine safety and security staff
                                    training on a two-year cycle. However, we determined that the training
                                    deficiencies identified in the 2002 GAO report continued to exist. Twenty-
                                    eight out of 37 (76%) PCSSOs, country directors, SSCs, and SSDOs we
                                    interviewed identified training for safety and security staff as an area in need
                                    of improvement. The Office of Safety and Security’s FY 2010-2012
                                    Integrated Planning and Budgeting System submission stated that the office
                                    is currently developing training programs for its staff as well as a
                                    certification program for SSCs; however, as of December 2009, this had not
                                    been fully developed. We compared training records to job responsibilities
                                    and identified areas for improvement related to PCSSO and SSC training.

 PEACE CORPS SAFETY AND             The Office of Safety and Security provided PCSSOs training on an ad-hoc
 SECURITY OFFICER TRAINING          basis depending on their needs and training requests. Our review of training
                                    records revealed that most PCSSOs received training in victim advocacy (8
                                    of 9 PCSSOs), criminal investigations (8 of 9), terrorism (5 of 9), and other
                                    basic security functions (3 of 9). However, no PCSSO received training in
                                    the areas of policy development, program coordination, and training delivery
                                    even though those responsibilities are in the PCSSO job description.




Final Report: Peace Corps Volunteer Safety and Security Program                                                    28
                                        Further, in 2003 the Department of State provided PCSSOs with 2-week
                                        training for overseas security. However, since that time Peace Corps has not
                                        worked with the Department of State to continue such training. 14

                                        The current PCSSOs have a variety of backgrounds and skills, and the
                                        agency needs a uniformed training and development plan to ensure PCSSOs
                                        have the skills needed to be effective consultants and technical advisors to
                                        posts. During our audit, the Office of Safety and Security developed a
                                        training plan of required PCSSO courses with expected implementation in
                                        January 2010.

 SAFETY AND SECURITY                    Because the agency lacked a standardized training program for SSCs, the
 COORDINATOR TRAINING                   posts determined what kind of training the SSC received. Most posts
                                        provide training based on the position’s responsibilities; however, SSC job
                                        responsibilities varied from post to post (as previously discussed in the
                                        Safety and Security Coordinator Roles section). As a result, SSC training
                                        varied and SSCs did not always receive training that matched essential job
                                        responsibilities such as developing and delivering training and advising on
                                        selection of safe Volunteer sites.

                                        Our analysis of training records revealed that the most widely received
                                        training was the crime incident response system’s online tutorial (54 of 68
                                        SSCs participating) and the online presentation on the death of a Volunteer
                                        (29 of 68 SSCs participating). Participation in all other trainings was
                                        inconsistent, though some SSCs had training in other relevant topics such as
                                        victim assistance, risk assessments, physical security, first aid, and criminal
                                        investigations.

                                        SSCs also received training from PCSSOs, although the topics covered by
                                        the PCSSOs varied, and the PCSSOs did not visit every post on a routine
                                        basis. Based on a review of PCSSO reports, PCSSOs did not visit 11 posts
                                        within 2008 and 2009.

                                        Some SSCs shadowed safety and security staff located in another country.
                                        This was considered beneficial by SSCs who participated in such a program
                                        but not all SSCs received this opportunity.

                                        Another valuable SSC training opportunity is the biennial conference
                                        facilitated by PCSSOs and funded by the Office of Safety and Security.
                                        Some country directors and SSCs suggested holding the conference every
                                        year, similar to the annual conferences for Peace Corps medical officers and
                                        administrative officers. The Office of Safety and Security funded the SSC
                                        conferences in prior years. Although the Office of Safety and Security had
                                        planned to conduct SSC workshops in FY 2009, the office’s FY 2010-2012
                                        budget submission stated that budget constraints forced them to abandon this
14
     Based on comments from the Department of State, this sentence was added after the preliminary report was issued.

Final Report: Peace Corps Volunteer Safety and Security Program                                                           29
                                    plan. In September 2009, the Office of Safety and Security submitted a
                                    request for agency resources to fund a reoccurring SSC conference. If
                                    approved, this will help address some of the posts’ concerns.

 CONCLUSION                         Clearly defined training programs help to ensure that staff has the necessary
                                    skills and abilities to perform their functions. Peace Corps provided
                                    standardized training and provided annual conferences for some field-based
                                    positions, but did not do this for SSCs even though Peace Corps described
                                    safety and security as the agency’s “highest priority.”
                                    Implementing clearly defined training programs will help ensure Peace
                                    Corps staff is competent and can provide adequate safety and security
                                    overseas through both preventative measures, such as providing Volunteer
                                    training in safety and security and ensuring that Volunteer sites meet
                                    minimum safety standards, as well as response mechanisms that ensure
                                    timely and appropriate actions when situations arise.

 W E R ECOMMEND:

 18. That the associate director for safety and security develop and implement a training program for Peace
     Corps safety and security officers based on updated descriptions of their roles, responsibilities, and
     needed skills.

 19. That the associate director for safety and security work with the associate director of global operations
     to develop and implement a training program for safety and security coordinators based on updated
     descriptions of their roles, responsibilities, and needed skills.

 20. That the Director allocate sufficient resources to implement safety and security coordinator and Peace
     Corps safety and security officer training programs.




Final Report: Peace Corps Volunteer Safety and Security Program                                                     30
                  F INDING C. M AINTAINING AND C OMMUNICATING
                          SAFETY AND SECURITY P OLICIES
          As the safety and security program changed, the Peace Corps did not communicate how the
          new policies related to the overall security strategy and ensure the information was
          complete and current. Specifically, the agency:

              •   Lacked a comprehensive security policy that connected the agency’s overall
                  security strategy to specific processes;
              •   Did not adequately communicate security strategy, risks, and responsibilities to
                  Volunteer applicants; and
              •   Did not maintain current Peace Corps Manual sections that clearly identified the
                  key offices and positions involved in safety and security.

          Frequent staff turnover and changes to the security program contributed to the lack of an
          organized and complete agency security policy. As a result, Peace Corps could not ensure
          Volunteers and staff were fully informed of the security program and the need for its rules
          and procedures.


 SECURITY POLICY                    Peace Corps did not fully document its safety and security program in a
                                    clear and coherent policy.

 OVERARCHING SECURITY               The Humanitarian Aid department of the European Commission is
 POLICY                             responsible for the European Union’s humanitarian aid and conducts studies
                                    of humanitarian operations. Their “Generic Security Guide for
                                    Humanitarian Organisations” states:

                                        Guidance on the organisation’s overall attitude to security should
                                        be written in a security policy. The hierarchy of security
                                        documents is thus:

                                            •   Security policy – giving overall policy and principles for
                                                the organisation
                                            •   Security manual – giving generic procedures for the
                                                organisation
                                            •   Security plan – giving detailed procedures for a specific
                                                location.

                                    Peace Corps provides generic and detailed security procedures without
                                    clearly articulating how these procedures relate to the overall policy and
                                    principles for the organization. The Peace Corps Manual sections defined
                                    the minimum post security procedures while individual posts develop more
                                    specific security plans in the welcome books, Volunteer and staff

Final Report: Peace Corps Volunteer Safety and Security Program                                                  31
                                     handbooks, and sometimes separate safety and security handbooks.
                                     However, Peace Corps lacked an overarching security document that
                                     explained the agency’s strategy for addressing and mitigating security risks.
                                     Table 4 lists the primary documents used for Peace Corps safety and
                                     security.


 Table 4. List of Peace Corps Safety and Security Guides
         Document                 Last Update                                             Description
  Peace Corps Internet website     September 25, 2008 and         Explains fundamentals about risks and mitigating factors.
  “What About Safety” and          March 9, 2009
  “Safety and Security In Depth”
  pages
  MS 270, “Volunteer/Trainee       December 3, 2007               Requires posts to establish programs that include informing
  Safety and Security” and                                        Volunteers of safety and security issues, providing safety
  compliance checklist                                            training, selecting safe Volunteer sites, developing and
                                                                  testing emergency action plans, and establishing protocols
                                                                  for reporting and responding to safety and security incidents.
  Volunteer Handbook               September 2005                 Emphasizes taking responsibility for personal safety and
                                                                  defines emergency action plans.
  MS 340, “Opening a Post” and     March 29, 2007                 Outlines the process for opening or reopening a Peace Corps
  attachments Peace Corps' New                                    post.
  Country Assessment Guide
  and New Country Entry Guide

  MS 130, “Office of Safety and    May 23, 2005                   Defines the roles and responsibilities of the Office of Safety
  Security: Organization,                                         and Security
  Mission, and Functions
  Evacuation Support Guide         September 2004                 Provides a roadmap in the event of an evacuation.
  Personal Safety Paradigm:        April 2001                     Explains the Peace Corps’ application of the acceptance
  Acceptance Model                                                model.
  Personal Safety Overseas         April 2000                     Useful lessons learned from pre-departure through incident
                                                                  occurrences.
  Country Welcome Book             Varied depending on the post   Provides post specific risks, statistics, and security policies.
  Country Volunteer Handbook       Varied depending on the post   Provides post specific risks and security policies for
                                                                  Volunteers.


                                     An overarching security document is necessary to logically connect these
                                     policies and procedures to the agency’s mission and strategy. According to
                                     HPG, a safety and security policy is “a key statement acknowledging risk,
                                     the responsibility of individual staff members and of the organisation to
                                     reduce risk, and the fundamentals of how the organisation intends to do
                                     so…. It is a signal to all stakeholders, staff, trustees, management, partners
                                     and donors that the organisation takes the safety and security of its staff
                                     serious.” Overarching security policies are a standard best practice
                                     identified by leading non-governmental organizations. For example:

                                          •     The International Federation of Red Cross and Red Crescent
                                                Societies, “Stay Safe: The International Federation’s Guide for
                                                Security Managers,” states, “A security plan is an essential tool for

Final Report: Peace Corps Volunteer Safety and Security Program                                                                      32
                                             developing and maintaining adequate security procedures and
                                             responses. The first phase of security planning is to identify and
                                             determine how the three security strategies (acceptance, protection
                                             and deterrence) can be utilized and implemented. The plan must
                                             relate to the specific operational situation and will comprise a
                                             number of components including: security regulations and
                                             guidelines; briefing and debriefing procedures; contingency
                                             planning; critical incident management.”

                                         •   People In Aid, a not-for-profit organization, seeks to improve
                                             organizational effectiveness within the humanitarian and
                                             development sector worldwide by advocating, supporting and
                                             recognizing good practice in management. In their document,
                                             “Policy Guide and Template Safety and Security,” People In Aid
                                             states, “The creation of an overarching security policy must remain
                                             the responsibility of headquarters…. Organisations should determine
                                             the key factors that make up a comprehensive security policy and
                                             design a series of standard operating procedures for posts….” It also
                                             recommends that security policies state who is responsible for the
                                             policy, the process of evaluating the policy, and the choice of the
                                             security strategy. See appendix D for the list of policy components.

                                         •   The Voluntary Service Overseas (VSO), an international
                                             development organization similar to Peace Corps, provides its staff
                                             and volunteers with the “VSO Security Policy.” It states, “This
                                             policy aims to inform staff and other parties connected with VSO
                                             about VSO’s approach to managing security so that they can take an
                                             active role in reducing risk in their work and daily lives. This policy
                                             will be accompanied by an Organisational Safety and Security Plan,
                                             which shows how VSO makes the policy work. Separate Security
                                             Plans must be developed for each country in which VSO works.”

                                    The lack of an overarching policy at Peace Corps was partially caused by the
                                    transition of responsibilities to the newly created Office of Safety and
                                    Security and was perpetuated by the frequent staff turnover and lack of
                                    knowledge management. As a result, Peace Corps did not articulate how the
                                    security practices described in the Peace Corps Manual supported its security
                                    strategy. Peace Corps could improve its security program by clearly
                                    defining its overall strategy and explaining how the current processes ensure
                                    its success. A comprehensive security document can provide the link to how
                                    the various rules and processes provide increased Volunteer safety and also
                                    help clarify the safety and security authorities and relationships discussed in
                                    finding A.

 CENTRALIZED STANDARD               Without a comprehensive security policy, Peace Corps could not ensure it
 OPERATING PROCEDURES               provided appropriate guidance for the most common security issues and in a

Final Report: Peace Corps Volunteer Safety and Security Program                                                    33
                                    readily available form and location for posts to easily access in times of
                                    need. A comprehensive security policy should include standard operating
                                    procedures that are well organized and readily available. HPG’s
                                    “Mainstreaming the Organisational Management of Safety and Security”
                                    emphasizes the need for safety and security documentation to be user-
                                    friendly. It states:

                                            This is an area of often major weakness. A pile of paper is
                                            unlikely to be actively and productively used by people with
                                            already little time to stand back and reflect, and burdened
                                            with too much paper. Safety- and security-related
                                            documentation has to be centralised in one reference pack.
                                            But that by itself is not enough. Operational agencies are not
                                            experts in information management, and tend to
                                            underestimate the vital importance of editing documents for
                                            internal consistency and reduction of repetition, and of good
                                            formatting and attractive presentation. Documents have to
                                            be made user-friendly.

                                    Peace Corps established operating procedures for evacuations, emergency
                                    action plans, site development and housing standards, and crime incidents.
                                    However, the documents were not centralized and country directors and
                                    SSCs were not always aware of where the documents were located.
                                    Although posts face different security risks based on the location and
                                    environment, there are similarities and common practices that the Office of
                                    Safety and Security could consolidate in standard operating procedures.
                                    This would help to address various security risks, establish basic rules for
                                    mitigating those risks, and set the tone for the agency.

 W E R ECOMMEND:

 21. That the associate director for safety and security coordinate an agency-wide effort to develop,
     document and disseminate a comprehensive safety and security plan that includes the agency’s safety
     and security strategy, security risks, and policies to mitigate those risks.

 22. That the associate director for safety and security work with the associate director of global operations
     to consolidate the standard operating procedures for safety and security coordinators and ensure the
     agency has a procedure for all major security issues.




Final Report: Peace Corps Volunteer Safety and Security Program                                                    34
 VOLUNTEER AWARENESS                       Peace Corps did not have an adequate process to ensure potential
                                           Volunteers were fully informed of the security risks before being sent
                                           overseas.

                                           Peace Corps primarily adheres to an acceptance strategy that requires
                                           Volunteers to integrate into their community and relies on the local
                                           population and host family to support and protect the Volunteer. This
                                           approach requires the Volunteer to adopt a culturally appropriate lifestyle
                                           and to minimize situations that put them at risk. It is essential that Peace
                                           Corps communicates its safety and security strategy and policies to the
                                           Volunteers from the application process through the close of service
                                           conference to help ensure Volunteers accept personal responsibility for their
                                           safety and security.

 APPLICATION PROCESS                       The recruitment and application process involved several Peace Corps
                                           offices that have responsibilities for providing safety and security
                                           information. Diagram 3 shows the safety and security information provided
                                           to Volunteers throughout the selection process.


 Diagram 3. Peace Corps Timeline from Application to Service

                       Recruitment                  Placement                       Staging               Pre-service
                     -applied to Peace          -approved and                    -pre-departure            Training
                           Corps               matched to country                  orientation           -held in country
                   Applicant searches for      Country Desk Units            Trainee receives         SSC and sometimes
                   information online and      from the regions              email containing the     the RSO brief the
                   can view the Safety of      send country-                 two-page document        trainees. Throughout
                   the Volunteer report        specific information          “Approach to Safety      training the exercises
                   listing crime statistics.   to the placement              and Security” with       focus on cultural
                                               officer.                      the staging itinerary.   expectations, security
                                                                                                      concerns, and the
                   Recruiter provides the      Placement officer sends       Trainee works            post’s safety and
                   Volunteer Handbook          the invitee the Volunteer     through workbook         security policies.
                   and discusses general       Assignment Descriptions       exercises about
                   challenges of               and an internet link to the   managing risks.
                   Volunteering overseas.      country welcome book.




 RECRUITMENT AND                           Although Peace Corps presents the security information in various
 PLACEMENT                                 documents and formats, Peace Corps had no assurance that potential
                                           Volunteers were fully informed of the risks and accepted the necessary
                                           responsibilities to mitigate those risks. An applicant is expected to have
                                           read:

                                               •    the two pages in the Volunteer Handbook concerning accepting
                                                    responsibility for security and the need for an emergency action plan;
                                               •    the country welcome book that addresses country specific security
                                                    issues, “staying safe,” “how to not be a target for crime,” and how to
                                                    prepare for the unexpected; and
Final Report: Peace Corps Volunteer Safety and Security Program                                                                35
                                        •    “The Approach to Safety and Security” that provides more detailed
                                             information on the risks and realities of Peace Corps service.

                                    However, the agency had no assurance that the potential Volunteers have
                                    read these pertinent documents, understand the risks, and accept personal
                                    responsibilities before leaving the country.

                                    Similar organizations have developed comprehensive material on common
                                    security issues and the need to accept responsibility for personal security.
                                    These documents clearly identify the risks of international service and the
                                    organization’s expectations of volunteers. For example:

                                         •   The Latter-day Saints Church Security Department provides all
                                             volunteers with a 22-page booklet on physical security; traveling
                                             safety; incident reporting; and policies on issues of transportation,
                                             robbery, injuries, kidnapping, and threats. The booklet also includes
                                             basic rules of good personal security for Volunteers to practice at all
                                             times.

                                         •   The VSO provides potential volunteers with a 20-page document
                                             entitled, “Know Before You Go.” This document contains
                                             information about the number and types of crimes that previous
                                             volunteers have experienced; defines volunteer’s and the
                                             organization’s responsibilities; provides advice, tips, and useful
                                             resources; and concludes with the section entitled, “Are You Ready
                                             to Accept the Risks?” The document focuses on making sure that
                                             potential volunteers are fully informed of the situation they will be
                                             placed in and the risks they will be expected to help mitigate.

                                             This document begins by stating, “VSO and our partner organisations
                                             want you to become a VSO volunteer. But before you accept your
                                             placement, you need to think carefully about whether you’re
                                             prepared to accept the risks it will involve. We would rather you
                                             looked at the risks and decided not to volunteer than went into a
                                             situation where you felt unsafe.” Before serving, the volunteer must
                                             sign a confirmation that they accept the risks.

                                    Providing Volunteers with a consolidated handbook on the basic principles
                                    of Volunteer safety early on in the process would help Volunteers
                                    understand their roles and responsibilities better. This would also provide
                                    more opportunity for those unwilling to accept responsibility to withdraw
                                    earlier and save Peace Corps time and costs.

 PRE-DEPARTURE                      GAO-02-818 reported that Peace Corps began adding a day-long safety and
 ORIENTATION (STAGING)              security training to Volunteer staging in July 2002. Director Vasquez


Final Report: Peace Corps Volunteer Safety and Security Program                                                      36
                                    discussed the role of staging in the overall safety and security process in his
                                    March 24, 2004 testimony before the House International Relations
                                    Committee. He said,

                                            Safety and security issues are fully integrated in all aspects of
                                            Volunteer recruitment, training, and service, with an emphasis
                                            on Volunteers taking personal responsibility at all times and
                                            assimilating into communities. Information provided
                                            throughout the recruitment and application process -- to
                                            recruiters, on the recruitment website, in printed application
                                            materials, informational booklets and educational videos,
                                            during the two days of staging, and the 10 to 12 weeks of in
                                            country pre-service training -- all includes the key messages
                                            that being a Volunteer involves risk, that Volunteers can and
                                            are expected to adopt safe lifestyles, and that the Peace Corps
                                            has an effective safety support system in place.

                                    Further, Director Vasquez included “the addition of the equivalent of one
                                    full day of safety and security training during a two-day pre-departure
                                    orientation (staging) for new trainees…” when discussing new initiatives in
                                    his testimony.

                                    By FY 2008, Peace Corps had reduced staging from two days to five hours
                                    to reduce costs due to budget cuts and to allow posts to provide country-
                                    specific training. Not only did the shortened staging timeframe decrease the
                                    amount of information that was provided, but some headquarters staff
                                    expressed concern that it provided less time for potential Volunteers to
                                    adjust and fully understand the important information they received before
                                    going overseas. Further, safety and security is not specifically discussed at
                                    staging, but is incorporated into some of the material and discussions. The
                                    amount of security information varies based on the staging coordinator’s
                                    knowledge and the post-specific material. Although the shift to in-country
                                    training is reasonable, providing basic Peace Corps safety and security
                                    information to Volunteers before leaving the U.S. will increase security
                                    awareness, provide a background for the practices they will learn at posts,
                                    and help ensure the safety and security message they receive is consistent.

                                    During our interviews with country directors and SSCs, several expressed
                                    the need for Volunteers to adapt their behavior to the local culture and to
                                    accept responsibility. Because Volunteer personal responsibility is vital to
                                    the success of the acceptance model strategy, increasing the security
                                    information at staging could reinforce Volunteers’ understanding of
                                    responsibilities and acceptance of security risks.

                                    Although Volunteers certify that they have read and understand the
                                    information in the Peace Corps Volunteer Handbook before departing from


Final Report: Peace Corps Volunteer Safety and Security Program                                                       37
                                    staging, the handbook did not discuss safety and security in depth. In
                                    contrast, VSO provides potential volunteers with weekend long training that
                                    informs the volunteer of security risks and ensures they are willing to accept
                                    responsibility. Peace Corps needs to provide Volunteers with more
                                    information about Peace Corps’ approach to safety and security and ensure
                                    that Volunteers have a basic understanding of security principles. Requiring
                                    that Volunteers attest to a statement accepting responsibility for their safety
                                    and security and acknowledging receipt and understanding of Peace Corps’
                                    basic security principles would help ensure Volunteers are aware of agency
                                    security policies and accept the risks involved and the consequences of not
                                    following policy.

 OFFICE COORDINATION                The Office of Safety and Security was not involved in the recruiting,
                                    placing, and staging processes. Although the Office of Safety and Security
                                    reviewed the “Approach to Safety and Security” document, information had
                                    not been updated since June 2003. Much of the information remained the
                                    same, but key safety and security positions, including the SSC, were not
                                    mentioned. Before departing the U.S., the Office of Safety and Security
                                    must ensure that Peace Corps informs Volunteers of what to expect, teaches
                                    the basic roles and responsibilities, and identifies key points of contact
                                    regarding safety and security.

 CONCLUSION                         In accordance with MS 130, the Office of Safety and Security is responsible
                                    for developing and implementing agency security policies and procedures
                                    and is tasked with ensuring Volunteers are adequately trained in their safety
                                    and security responsibilities. Therefore, the Office of Safety and Security
                                    must be involved in the entire process including recruiting, placing, and
                                    staging to ensure Volunteers are fully informed of the agencies’ security
                                    policies and procedures.

 W E R ECOMMEND:

 23. That the associate director for safety and security work with the associate director for volunteer
     recruitment and selection to provide Volunteers with a consolidated handbook on the basic principles of
     Volunteer safety during the recruitment and staging processes.

 24. That the associate director of global operations, in conjunction with the associate director for safety and
     security and the associate director for volunteer recruitment and selection, develop a code of conduct or
     list of basic security principles that Volunteers must sign before departure to ensure Volunteers know
     their responsibilities and accept the risks involved with serving overseas.

 25. That associate director for volunteer recruitment and selection work with the associate director for
     safety and security to ensure the information presented to Volunteers at staging adequately addresses
     security risks, teaches steps to mitigate those risks, and identifies key Peace Corps personnel involved in
     the security process.


Final Report: Peace Corps Volunteer Safety and Security Program                                                     38
 REGULARLY UPDATED                  Peace Corps did not update Peace Corps Manual sections to identify the
 MANUALS                            change in safety and security roles and responsibilities.

 STAFF RESPONSIBILITIES             Because of the changes in the safety and security programs it is important to
                                    maintain current guidance to keep the posts and other agencies informed.
                                    However, our review identified several areas where the Peace Corps Manual
                                    sections were not current. Specifically, Peace Corps Manual sections did not
                                    include all offices, key positions, and responsibilities of Peace Corps safety
                                    and security personnel.

                                        •   MS 270 governs the post safety and security, but did not define the
                                            roles and responsibilities of the SSC, PCSSO, or SSDO. The policy
                                            discusses the necessary elements of a post’s safety and security
                                            program and assigns overall responsibility to the country director.

                                        •   MS 270 cites outdated policies and procedures as support and
                                            resource materials to assist posts in establishing an effective
                                            Volunteer and trainee safety support system. It also states, “Staff
                                            responsibilities under the EAP [emergency action plan] are outlined
                                            in MS 350.” However, Peace Corps rescinded MS 350.

                                        •   MS 340 provides guidance on opening a post, but did not mention
                                            the Office of Safety and Security or the Office of Medical Services
                                            although the accompanying procedure guides described their
                                            essential roles in determining the safety of a country and potential
                                            Volunteer locations.

                                        •   MS 130 mentions the Volunteer Safety Council which no longer
                                            exists.

 W E R ECOMMEND:

 26. That the associate director for safety and security update Peace Corps Manual sections 130 and 270 to
     include the roles and responsibilities of the current safety and security offices and key positions.

 27. That the chief of staff direct the update to Peace Corps Manual section 340 to include the roles and
     responsibilities of the Office of Safety and Security and the Office of Medical Services.




Final Report: Peace Corps Volunteer Safety and Security Program                                                    39
                          F INDING D. I NTERAGENCY R ELATIONSHIP
           Peace Corps had not formalized its inter-agency relationship regarding safety and security
           responsibilities with the Department of State. This occurred because Peace Corps
           headquarters was concerned about how a formal agreement would affect the level of
           support received. Instead, they relied on individuals at posts to manage their relationships
           with Department of State safety and security personnel.

           As a result, Peace Corps posts’ communication with RSOs varied, embassy security staff
           did not clearly understand Peace Corps roles and responsibilities, and the level of support
           differed between countries. Unclear responsibilities could compromise Volunteers’ safety
           and hinder response to crimes against Volunteers.


 AUTHORITY OVERSEAS                   Although Peace Corps maintains independence from foreign policy, it relied
                                      on the Department of State for several security functions. The Department
                                      of State is statutorily responsible for the development and implementation of
                                      policies and programs to provide protection of all U.S. Government
                                      personnel on official duty abroad and the establishment and operation of
                                      security functions at all U.S. Government missions abroad. 15

 MEMORANDUMS OF                       Department of State, Bureau of Diplomatic Security (DS) maintained
 UNDERSTANDING                        overseas safety and security memorandums of understanding (MOUs) in the
                                      Foreign Affairs Manual title 12, “Diplomatic Security,” section 400.
                                      According to the Foreign Affairs Manual title 12, section 050, MOUs “are a
                                      means to coordinate diplomatic security programs between DS and other
                                      federal agencies domestically and at posts abroad….MOUs are not legal
                                      documents, per se, but rather management tools which assist in program
                                      administration.” The Foreign Affairs Manual included MOUs with the U.S.
                                      Agency for International Development, Broadcasting Board of Governors,
                                      Department of Defense, Department of Commerce, and the Department of
                                      Navy. These agreements included the points of contacts and discussed the
                                      responsibilities for physical security, personnel security investigations, and
                                      training services.

 PEACE CORPS SECURITY                 The Department of State RSOs routinely provided Peace Corps support by
 AGREEMENTS                           assessing U.S. government facilities, conducting staff background checks,
                                      and providing support in response to serious crimes. However, Peace Corps
                                      had not clearly defined these services in a formal document. Instead, Peace
                                      Corps maintained informal agreements with the Department of State that did
                                      not provide specifics concerning the services and expectations between the
                                      agencies.


15
  Department of State authority for security overseas is derived from various statutes, including the Omnibus Diplomatic Security
and Antiterrorism Act of 1986 (Public Law 99-399).

Final Report: Peace Corps Volunteer Safety and Security Program                                                                 40
                                     In February 2009, the Department of State issued two cables (STATE 12291
                                     and STATE 12309) to its overseas posts regarding the interaction with the
                                     Peace Corps. 16 The first cable reaffirmed the basic principles that guide the
                                     Department of State’s dealings with the Peace Corps and the need to
                                     maintain separation. The second cable established the responsibilities of the
                                     Peace Corps staff and the RSOs regarding crimes against Volunteers
                                     overseas. These cables clearly identified many of the safety and security
                                     roles and responsibilities. However, Peace Corps and the Department of
                                     State employees may not be familiar with the relationship and their
                                     respective responsibilities because Peace Corps did not formalize the
                                     agreements in an MOU similar to those in the Foreign Affairs Manual title
                                     12, section 450.

                                     Survey responses from 60 RSOs revealed that they were unclear about the
                                     roles of the SSC and PCSSO. The majority of RSOs (47 out of 60) did not
                                     answer the question concerning PCSSO roles and two of the responses
                                     confused the SSC with the PCSSO roles. When asked whether Peace Corps
                                     adequately explained and communicated its safety and security roles and
                                     responsibilities, 14 out of 60 stated they did not understand the roles and
                                     another 14 received clarification of roles only by talking with the country
                                     director and SSC.

                                     Without clearly defining the relationship with Department of State, Peace
                                     Corps increased the risk that response to Volunteer security issues would not
                                     be provided timely. In security situations, such as violent crimes,
                                     kidnappings, and acts of terrorism, every second is vital and everyone must
                                     know their responsibilities to ensure lives are safe. One RSO surveyed said,
                                     “When an incident occurs and the SSC or PCSSO requests RSO assistance
                                     (crime or investigation involving a PCV or PC employee), PC headquarters
                                     needs to quickly coordinate with DS headquarters. . . so they may officially
                                     task [an] RSO prior to any investigative steps are taken. This has proven a
                                     bit difficult in the past and the lack of DS headquarters coordination can
                                     place the RSO in a very difficult position.” The RSO could respond quicker
                                     to Peace Corps safety and security needs and with less apprehension if the
                                     RSO’s responsibilities regarding Volunteers were explicitly stated in an
                                     MOU.

 RELATIONSHIP WITH                   Unlike most federal agencies, both U.S. government employees and
 VOLUNTEERS                          Volunteers that are U.S. citizens work for Peace Corps. The Peace Corps
                                     Act states, “except as provided in this chapter, volunteers shall not be
                                     deemed officers or employees or otherwise in the service or employment of,
                                     or holding office under, the United States for any purpose.” The Department
                                     of State’s message instructed its overseas posts to “treat [Volunteers] in the
                                     same manner as you do all other private American citizens resident in your

16
  The cables were previously discussed as messages in the preliminary report. The wording was changed to cables
and the numbers were added after receiving comments from the Department of State.

Final Report: Peace Corps Volunteer Safety and Security Program                                                    41
                                    area.” A clear understanding of the safety and security expectations between
                                    posts and DS is furthered necessary because of this unique combination of
                                    government employees and Volunteers.

                                    Volunteers must maintain separation from the Department of State to avoid
                                    the appearance of connections to intelligence communities that may
                                    compromise the Peace Corps’ ability to promote world peace and friendship.
                                    In accordance with the Peace Corps Act, “Peace Corps shall be an
                                    independent agency within the executive branch.” Nonetheless, the
                                    Department of State maintains responsibilities regarding the security of all
                                    Americans overseas. For example, Foreign Affairs Manual Title 12, chapter
                                    420, “Post Security Management,” assigns RSOs the responsibility of
                                    “Providing unclassified security threat countermeasure briefings and other
                                    professional security advice to U.S. business executives and other U.S.
                                    private citizens at a level of frequency commensurate with host-country
                                    threat conditions.” Therefore, a formal MOU is necessary to explain the
                                    unique situation and how security services differ between the U.S.
                                    government employees and the Volunteers.

                                    A formal MOU with the Department of State must take into consideration
                                    other agencies and offices that have roles regarding Volunteer safety and
                                    security. For example, the Department of State Bureau of Consular Affairs
                                    maintains authority to provide protection and services for U.S. citizens and
                                    nationals, including crisis management, victim assistance, death procedures,
                                    and arrest of U.S. citizens abroad. Peace Corps OIG and Office of Special
                                    Services also have roles regarding victim assistance, death procedures, and
                                    arrest of U.S. citizens abroad.

 W E RECOMMEND:

 28. That the Director, in conjunction with the associate director for safety and security, develop formal
     documentation with the Department of State Bureau of Diplomatic Security to clarify the roles and
     responsibilities for overseas safety and security regarding Peace Corps staff and Peace Corps
     Volunteers.




Final Report: Peace Corps Volunteer Safety and Security Program                                                    42
                        O BJ ECTIVES, SCOPE , AND M ETHODOLOGY
 OBJECTIVE                           The primary objective of our program audit was to determine whether the
                                     Peace Corps’ safety and security function is providing competent and
                                     effective support for Volunteer safety and security throughout the world.
                                     We also examined applicable internal controls over safety and security
                                     operations as it related to our audit objective.

 SCOPE AND METHODOLOGY               The OIG conducted an audit of the Peace Corps overseas safety and
                                     security program July 17 – December 7, 2009. We conducted this
                                     performance audit in accordance with generally accepted government
                                     auditing standards. Those standards require that we plan and perform the
                                     audit to obtain sufficient, appropriate evidence to provide a reasonable basis
                                     for our findings and conclusions based on our audit objectives. We believe
                                     that evidence obtained provides a reasonable basis for our findings and
                                     conclusions based on our audit objectives.

                                     We based our audit conclusions on information from documents, data
                                     analysis, and interviews. We interviewed headquarters staff in the Office of
                                     Safety and Security, regions, the Office of Special Services, and the Office
                                     of Volunteer Recruitment and Selection. We judgmentally selected 12 out
                                     of approximately 74 posts and interviewed the country directors and SSCs.

                                     We interviewed representatives at other federal agencies including
                                     Department of State and the U.S. Agency for International Development.
                                     We coordinated with the Department of State DS to survey RSOs. Sixty
                                     out of approximately 150 RSOs and staff responded to our questions
                                     concerning Peace Corps safety and security roles, responsibilities,
                                     expectations, and communication. We also interviewed 10 overseas RSOs
                                     to gain their understanding of the Peace Corps’ roles and responsibilities.

                                     We identified best practices from international non-governmental
                                     organizations through interviews with safety and security management at
                                     Voluntary Service Overseas, Save the Children, the Church of Latter-day
                                     Saints and the United Methodist Church Mission Volunteers and reviewed
                                     guidance from the European Commission’s Humanitarian Aid office,
                                     People In Aid, and the Overseas Development Institute HPG. We obtained
                                     crime statistics from the U.S. Department of Education and the United
                                     Nations Office on Drugs and Crime websites to compare with Peace Corps
                                     crime statistics.

                                     We reviewed Peace Corps policies, organizational charts, personnel files,
                                     training records, and standard operating procedures. We obtained vacancy
                                     announcements and resumes from Office of Human Resource Management
                                     to analyze job responsibilities and the skills needed for safety and security

Final Report: Peace Corps Volunteer Safety and Security Program                                                      43
                                     personnel in the following positions: associate director for safety and
                                     security; chief, overseas operations; SSDOs, and PCSSOs. The original
                                     vacancy announcements, including the knowledge, skills, and abilities and
                                     minimum requirements needed for the position, were not available for some
                                     positions. Instead, we relied on the most recent version of the vacancy
                                     announcement to determine the job responsibilities, position requirements,
                                     and skills needed. We were also unable to obtain the most recent resumes
                                     for all safety and security personnel and at times used resumes that had been
                                     submitted for previous Peace Corps positions.

                                     We also conducted an analysis of SSC pay grades. We compared the pay
                                     grades of SSCs at posts across the world. The pay grade level of each SSC
                                     was also compared to the pay grades of programming staff members at the
                                     same post, including program managers/APCDs, program assistants,
                                     program specialists, and program secretaries; to determine if the SSC was
                                     paid more, the same, or less than the programming staff members. Because
                                     SSCs and many programming staff members are personal services
                                     contractors, they do not have an actual pay grade. However, Peace Corps
                                     has identified the equivalent foreign service national pay grades for these
                                     staff members. Regions provided the pay grade data for SSCs and
                                     programming staff. Data discrepancies were noted, which we attempted to
                                     clarify.

                                     To determine the number of Volunteers per SSC and safety and security
                                     assistant, we obtained a list of all field-based safety and security staff
                                     members from the regions. Any discrepancies between this data and other
                                     staff data (such as staff listings on the intranet) were clarified. The number
                                     of Volunteers worldwide was obtained from Peace Corps’ Congressional
                                     Budget Justification for FY 2010. This analysis used the Volunteer
                                     numbers as of September 30, 2009.

                                     We reviewed Office of Safety and Security budgetary documents for FYs
                                     2008 and 2009, including budgeted funds used and requests for agency
                                     resources. We also obtained budgets for posts hosting PCSSOs to
                                     summarize the associated costs. We extracted safety and security budget
                                     information for all posts from the accounting system and analyzed the
                                     expenditures to identify inappropriate charges to the safety and security
                                     account. In addition, we reviewed the FYs 2008 and 2009 unfunded and
                                     funded requests for agency resources to identify any safety and security
                                     needs not adequately covered by posts’ budgets.

                                     We relied on computer-processed data from Peace Corps’ financial
                                     management system Odyssey and the Crime Incident Reporting System.
                                     While we did not test the financial management system controls, we
                                     compared supporting documentation with the records contained in the
                                     systems to determine whether the information generated by the system was


Final Report: Peace Corps Volunteer Safety and Security Program                                                       44
                                     sufficiently reliable for the audit objectives. We conducted data integrity
                                     tests on the entire population of Crime Incident Reporting System for FY
                                     2008 information. We judgmentally sampled the Crime Incident Reporting
                                     System for FY 2008 to obtain a selection of 25 violent and 25 non-violent
                                     incidents and verified Crime Incident Reporting System data with
                                     documentation from safety and security personnel.




Final Report: Peace Corps Volunteer Safety and Security Program                                                45
                                          I NTERNAL C ONTROLS
          GAO established guidance for implementing internal controls in federal agencies in report
          GAO/AIMD-00-21.3.1, “Standards for Internal Control in the Federal Government.”
          Internal controls provide reasonable assurance that the following objectives are being
          achieved:

              •   effectiveness and efficiency of operations,
              •   reliability of financial reporting, and
              •   compliance with applicable laws and regulations.

          The five internal control standards are control environment, risk assessment, control
          activities, information and communication, and monitoring. During our audit, we reviewed
          whether Peace Corps had adequate internal controls related to overseas safety and security.
          In our report, we identified internal control weaknesses related to control environment,
          control activates, information and communication, and monitoring. We did not specifically
          address risk assessment.

 CONTROL ENVIRONMENT                 Peace Corps did not establish a positive control environment because it
                                     lacked clear lines of authority and lines communication (finding A) and
                                     failed to provide a commitment to competence (finding B). The Office of
                                     Safety and Security did not exercise authority over the agency-wide safety
                                     and security program. As a result, posts and regions implemented safety
                                     and security practices that were inconsistent and did not always comply
                                     with agency policies. In addition, the Peace Corps did not:

                                          •   clearly define the required skills for safety and security positions,
                                          •   standardize the SSC role, and
                                          •   establish appropriate training programs to ensure safety and security
                                              personnel could fulfill their responsibilities.

 CONTROL ACTIVITIES                  Peace Corps did not have an adequate process to ensure posts complied
                                     with safety and security policies contained in MS 270. The agency did not
                                     take sufficient steps to mitigate reoccurring safety and security weaknesses
                                     because of the lack of management oversight (finding A). Further, Peace
                                     Corps did not effectively manage its human workforce to ensure the
                                     appropriate personnel filled the security positions and were provided the
                                     necessary training, tools, structure, incentives, and responsibilities to ensure
                                     operational success (finding B).

 INFORMATION AND                     Peace Corps improved its communication of crime incidents through the
 COMMUNICATION                       implementation of the Crime Incident Reporting System. However,
                                     headquarters did not ensure the posts provided the information timely.
                                     Further, headquarters did not streamline the information flowing to the
                                     posts because of overlap in headquarters responsibilities (finding B).

Final Report: Peace Corps Volunteer Safety and Security Program                                                     46
 MONITORING                          Peace Corps did not establish an effective process to correct deficiencies
                                     identified in findings from Office of Safety and Security reviews (finding
                                     A). In addition, management did not take sufficient actions to mitigate
                                     reoccurring safety and security weaknesses identified in OIG evaluations
                                     and audits (finding A).




Final Report: Peace Corps Volunteer Safety and Security Program                                                   47
                                      QUESTIONED COSTS AND
                                     FUNDS PUT TO BETTER USE
          We did not identify any questioned costs during the course of the audit. We identified
          funds to be put to better use during the course of the audit. They are discussed in the
          accompanying audit report and enumerated below along with the recommendation number
          in the report.

                                                Questioned Costs
             Recommendation                           Description                Amount
                 number
                   N/A


                                            Funds Put to Better Use
             Recommendation                           Description                Amount
                 number
                   17                  Placement of PCSSOs overseas         $185,000 per year




Final Report: Peace Corps Volunteer Safety and Security Program                                     48
                                    LIST OF RECOMMENDATIONS

 W E R ECOMMEND:

 1. That the Director reevaluate the organizational structure related to the safety and security functions
    and establish clear lines of authority to ensure the Office of Safety and Security can manage the
    agency’s safety and security program.

 2. That the associate director for safety and security work with the associate director of global
    operations to review the roles and responsibilities of the safety and security desk officers and
    clarify the differences between the safety and security desk officers and Peace Corps safety and
    security officers to eliminate unnecessary duplication and ensure the Office of Safety and Security
    has oversight over all safety and security functions in accordance with the Peace Corps manual
    section 130.

 3. That the associate director of global operations develop standard operating procedures for the
    safety and security desk officer position based on the revised roles and responsibilities.

 4. That the associate director for safety and security work with the associate director of global
    operations and the chief financial officer to develop a process to involve the Office of Safety and
    Security in posts’ budget planning for safety and security expenses and in formulating the
    recommendation to the Director for posts safety and security needs.

 5. That the Director ensures that Peace Corps develop and implement a process that adequately tracks
    Peace Corps safety and security officer recommendations and ensures that corrective actions are
    taken in a timely manner. The process should define roles and responsibilities of responsible
    personnel and hold them accountable for implementation.

 6. That the associate director of global operations develop a clearly defined process that identifies and
    establishes corrective actions for posts that repeatedly submit incident reports late.

 7. That the associate director of global operations reiterate to the regions and all posts the importance of
    timely reports and formalize the abovementioned process through a policy memorandum or Peace
    Corps Manual section.

 8. That the chief compliance officer, in conjunction with the associate director for safety and security,
    establish a process to identify reoccurring safety and security issues and to take necessary steps to address
    these issues through additional guidance, clarification, or other action.

 9. That the associate director for safety and security, in conjunction with the associate director of global
    operations, develop a process to track post compliance with the Peace Corps policies requiring post staff to
    have background investigations and signed intelligence background information certifications.

 10. That the associate director of global operations require posts to use the Administrative Management
     Control Survey, or at a minimum the safety and security section, to ensure that posts continue to review
     and assess compliance with Peace Corps Manual section 270.

Final Report: Peace Corps Volunteer Safety and Security Program                                                 49
 11. That the Director provide the Office of Safety and Security with the mandate, authority, and resources to
     review post responses to the safety and security sections of the Administrative Management Control
     Survey and use them to provide guidance on areas of weakness and provide assistance, as appropriate,
     when posts report non-compliance.

 12. That the associate director of global operations work with the associate director for safety and security
     and post personnel to review the safety and security coordinator position and determine the needed
     safety and security coordinator roles and responsibilities.

 13. That the associate director of global operations, in coordination with the general counsel, update the
     safety and security coordinator position’s statement of work and define minimum skills and education,
     as well as the position descriptions for all personnel at post with safety and security responsibilities,
     based on the review of safety and security coordinator roles and responsibilities.

 14. That the associate director for safety and security work with the associate director of global operations
     and post personnel to determine an appropriate pay grades for safety and security coordinators based on
     the updated review of the safety and security coordinator role and responsibilities.

 15. That the associate director for safety and security work with the associate director of global operations
     and post personnel to assess the need for additional safety and security personnel at posts and develop a
     standard evaluation process for determining the required number of staff.

 16. That the associate director for safety and security work with the associate director of global operations
     to reassess the Peace Corps safety and security officer roles and responsibilities and revise the job
     description accordingly.

 17. That the associate director for safety and security work with the associate director of global operations
     to analyze whether the posting of each Peace Corps safety and security officer enhances safety and
     security and is the most efficient, effective, and cost effective placement. If needed, relocate Peace
     Corps safety and security officers accordingly.

 18. That the associate director for safety and security develop and implement a training program for Peace
     Corps safety and security officers based on updated descriptions of their roles, responsibilities, and
     needed skills.

 19. That the associate director for safety and security work with the associate director of global operations
     to develop and implement a training program for safety and security coordinators based on updated
     descriptions of their roles, responsibilities, and needed skills.

 20. That the Director allocate sufficient resources to implement safety and security coordinator and Peace
     Corps safety and security officer trainings.

 21. That the associate director for safety and security coordinate an agency-wide effort to develop,
     document and disseminate a comprehensive safety and security plan that includes the agency’s safety
     and security strategy, security risks, and policies to mitigate those risks.




Final Report: Peace Corps Volunteer Safety and Security Program                                                  50
 22. That the associate director for safety and security work with the associate director of global operations
     to consolidate the standard operating procedures for safety and security coordinators and ensure the
     agency has a procedure for all major security issues.

 23. That the associate director for safety and security work with the associate director for volunteer
     recruitment and selection to provide Volunteers with a consolidated handbook on the basic principles of
     Volunteer safety during the recruitment and staging processes.

 24. That the associate director of global operations, in conjunction with the associate director for safety and
     security and the associate director for volunteer recruitment and selection, develop a code of conduct or
     list of basic security principles that Volunteers must sign before departure to ensure Volunteers know
     their responsibilities and accept the risks involved with serving overseas.

 25. That associate director for volunteer recruitment and selection work with the associate director for
     safety and security to ensure the information presented to Volunteers at staging adequately addresses
     security risks, teaches steps to mitigate those risks, and identifies key Peace Corps personnel involved in
     the security process.

 26. That the associate director for safety and security update Peace Corps Manual sections 130 and 270 to
     include the roles and responsibilities of the current safety and security offices and key positions.

 27. That the chief of staff direct the update to Peace Corps Manual section 340 to include the roles and
     responsibilities of the Office of Safety and Security and the Office of Medical Services.

 28. That the Director, in conjunction with the associate director for safety and security, develop formal
     documentation with the Department of State Bureau of Diplomatic Security to clarify the roles and
     responsibilities for overseas safety and security regarding Peace Corps staff and Peace Corps
     Volunteers.




Final Report: Peace Corps Volunteer Safety and Security Program                                                  51
APPENDIX A


                                 ACRONYMS AND GLOSSARY
ACRONYMS

          AMCS                                         Administrative Management Control Survey
          APCD                                                     Associate Peace Corps Director
          DS                                                                   Diplomatic Security
          FY                                                                           Fiscal Year
          GAO                                                  Government Accountability Office
          HPG                                                          Humanitarian Policy Group
          MOU                                                      Memorandum of Understanding
          MS                                                          Peace Corps Manual Section
          OIG                                                          Office of Inspector General
          PCSSO                                           Peace Corps Safety and Security Officer
          RSO                                                            Regional Security Officer
          SSC                                                      Safety and Security Coordinator
          SSDO                                                   Safety and Security Desk Officer
          VSO                                                          Voluntary Service Overseas

GLOSSARY

Acceptance Strategy. A method of mitigating safety and security threats or having the local communities
control the threats on your behalf by gaining their consent and acceptance for your presence and your work.

Peace Corps Safety and Security Officer. Peace Corps U.S. direct hire personnel assigned to the field to
serve as safety and security consultants to the posts in the sub-regions under their responsibility. They
provide overseas posts with guidance and training to implement a Volunteer safety and security system that
is most appropriate for the environment for the post and in accordance with agency policies and priorities.

Regional Security Officer. Department of State DS special agents, assigned to U.S. diplomatic missions
overseas. They serve as the personal advisor to the ambassador or chief of mission on all security issues.
Their responsibilities include, but are not limited to: coordinating all aspects of a mission's security
program; developing and implementing effective security programs to protect U.S. government employees;
providing unclassified security briefings and advice to U.S. business executives overseas; and serving as the
primary liaison with foreign police and security services overseas in an effort to obtain support for U.S. law
enforcement initiatives and investigations.

Safety and Security Coordinator. Peace Corps position located at a post and assigned to augment and
support senior staff security-related functions. The position reports to the country director and is typically a
host country national. See appendix C for an example of this position’s statement of work.

Safety and Security Desk Officer. Peace Corps position assigned to the regions that reports to the
region’s chief of operations. The position provides support to regional senior management in developing,

integrating, and monitoring regional safety and security activities, training, data compilation, analysis, and
APPENDIX A

other relevant initiatives.

Staging. A brief, intense orientation to the Peace Corps and the general demands of being a healthy, safe,
and effective Volunteer prior to departure overseas. The purpose of staging is to register trainees, give a
general orientation to Peace Corps, and allow some time for reflection on commitment to service and
personal responsibility in maintaining one's health and safety.

Standard Operating Procedures. Formally established procedures for carrying out particular operations
or dealing with particular situations, written specifically to prevent an incident happening, to survive an
incident, or to follow as part of the agency’s incident and crisis management.
APPENDIX B




                             PCSSO AND SSDO RESPONSIBILITIES
        The following table is a comparison of PCSSO and SSDO responsibilities based on the
        FY 2009 position descriptions.

                  Comparison of PCSSO and SSDO Roles and Responsibilities
     Area of Responsibility            PCSSO                            SSDO
Safety and Security Policy           Develops new policies,              No roles or responsibilities listed.
                                     procedures, and guidelines.
                                     Assesses the impacts of changes
                                     on operations.
Safety and Security Trend Analysis   Collects and analyzes post and      Analyzes post, regional, and sub-
                                     sub-regional information and        regional information and provides to
                                     communicates information to         posts and regional management.
                                     stakeholders.                       Assesses trends in regional safety and
                                                                         security concerns and issues and drafts
                                                                         strategies and responses.
Recommending Improvements            Provides guidance to address        Compiles and prepares reports on
                                     problems and concerns and           safety and security activities for the
                                     develops recommendations and        purpose of recommending optimum
                                     alternative solutions to minimize   procedures and program management
                                     and mitigate risks.                 guidance to region.
Expert Knowledge                     Serves as an agency technical       Maintains an expert knowledge of the
                                     authority with respect to policy    regions' safety and security strategies
                                     impacts on the agency's security    and trends.
                                     programs and operations.
Post MS 270 Compliance               Provides managers and               Provides MS 270 compliance technical
                                     employees with information on       support, clarifies agency safety policy,
                                     interpretation of agency security   responds to direct inquiries, answers
                                     guides.                             questions, and analyzes files from
                                                                         posts. Monitors MS 270 compliance.
Crisis Management                    Facilitates crisis management       Under specific direction of the
                                     and emergency preparedness          regional director and region's chief of
                                     processes, including the            operations, assists in management of
                                     development and testing of          regional safety and security crisis
                                     emergency action plans and          situations as they arise.
                                     training of Volunteers and staff.
Emergency Planning                   Collaborates with the post in       Provides technical support to posts
                                     developing crisis management        regarding post-specific emergency
                                     and emergency action plans and      planning process. Reviews emergency
                                     response strategies.                action plans with staff from the Office
                                                                         of Safety and Security.
Information Sharing                  Collects and disseminates           Develops specific implementation
                                     resources and best practices to     strategies to promote information
                                     posts through participation and     dissemination and exchange among
                                     facilitation at workshops,          security and safety oriented
                                     conferences, and joint training     organizations and among assigned
                                     events.                             program offices.
APPENDIX B



              Comparison of PCSSO and SSDO Roles and Responsibilities (cont’d)
     Area of Responsibility            PCSSO                             SSDO
Training                         Evaluates existing training programs       Evaluates existing training programs and
                                 and assists and facilitates                procedures and develops guidelines and
                                 development of guidelines and              modules for the regions.
                                 modules for regions.

                                 Identifies training needs and              Occasionally delivers non-standard
                                 develops and delivers non-standard         security courses covering advanced
                                 security courses covering advanced         technical systems or subject matter areas.
                                 subject matter areas.

                                 Assists in the training of new SSCs
                                 at posts. Participates in pre-service
                                 and in-service trainings. Plans and
                                 conducts workshops, conferences,
                                 and joint training events for multiple
                                 sub-regional posts.
Regional Support                 No roles or responsibilities               Assesses and updates region's emergency
                                 listed.                                    action plan. Performs record-keeping and
                                                                            compiles reports for the region. Acts as a
                                                                            liaison with PCSSOs. Recommends safety
                                                                            and security priorities for allocation of
                                                                            budget and staff resources.
New Country Assessment           Visits posts to assess the socio-          Assists in the new country entry or re-
                                 economic, political, and criminal          entry assessments.
                                 climate and its impact on Volunteer
                                 safety and security. Conducts risk
                                 assessments and recommends a
                                 series of strategies to improve post's
                                 posture in reducing security risks
                                 and minimizing crimes against
                                 Volunteers.
Interagency Relationship         Acts as liaison with RSO. Serves as        No roles or responsibilities listed.
                                 technical expert by using policies
                                 and procedures to assist in
                                 development and maintenance of
                                 relationships with stakeholders.
Criminal Investigative Liaison   Establishes and maintains                  No roles or responsibilities listed.
                                 relationship with state, local entities,
                                 and industries affected by the
                                 agency’s programs. Creates
                                 processes to enable the agency to
                                 pursue collaborative arrangements
                                 and relationships with federal, state,
                                 and local government agencies.
APPENDIX C


                        SSC STATEMENT OF WORK TEMPLATE
       Regions provide the following statement of work as an example to posts when filling a
       vacant SSC position.

       SAFETY AND SECURITY COORDINATOR

       The Safety and Security Coordinator reports to the Country Director (CD) and provides
       safety and security support to post. The role of the incumbent is to augment and support,
       not assume responsibility for, senior staff security-related functions (i.e., site inspection
       and selection, Peace Corps Volunteer (PCV) site visits, revising the Emergency Action
       Plan). Overall the SSC has primary responsibility to monitor and maintain appropriate
       documentation regarding post compliance with MS 270. Also, under the direct
       supervision of the Country Director, the incumbent may be the contact point with the
       Peace Corps Safety and Security Officers (PCSSO), Safety and Security Desk Officers,
       Embassy security officials, and local law enforcement agencies in carrying out the
       responsibilities designated below or as directed by the Country Director. The incumbent
       must have sufficient English and local language skills to carry out these duties.

       RESPONSIBILITIES

       MS 270 Compliance:

             1. Develops and maintains a legible and orderly system of compiling, reporting, and
                filing safety and security incident reports, local media reports with safety
                implications, safety and security directives from Peace Corps Headquarters, the
                US Embassy and post. This information must be made accessible to appropriate
                post staff as required.


             2. Provides administrative support for MS 270 verification, ensuring that adequate
                systems are functioning to support Volunteer safety and security. This can
                include, but is not limited to:

                    o Ensuring that all site locator forms are recorded in the office, current, and
                      PCV communication access is accurate. Updates as required.
                    o Ensuring that all site history forms are available, integrated and
                      computerized, filed geographically, and up-to-date.
                    o Works with the training manager to ensure that all safety and security
                      training competencies are integrated into Pre-Service Training/In-Service
                      Training (PST/IST) and verified with a written report.
                    o Ensuring that all Volunteer site selection criteria and visits are
                      documented and filed appropriately.
                    o Maintains PCV travel/out of site log.
APPENDIX C

                    o Regularly updates and monitors safety and security data in the VIDA d-
                      base ( i.e. Volunteers, Consolidation Points, EAP events, sites, reports,
                      etc.)

             3. Participates in staff meetings (both general staff meetings and senior staff
                meetings at the discretion of the CD), discussions and activities and makes
                recommendations for changes in program policy and procedures as they relate to
                Volunteer safety and security.

             4. Establishes and maintains open communication with both the regional PCSSO
                and the Safety and Security Desk Officer, informing them of both problems and
                progress in the country, such as major incidents, changes in crime data and other
                information on new policies or programs affecting safety and security.

             5. Develops and maintains contact with Embassy security staff and local law
                enforcement to obtain crime updates and information needed for assessing the
                security of existing and potential Volunteer sites.

             6. Under guidance from the CD, serves as post's primary safety and security
                contact/intermediary with other non-governmental organizations, volunteer
                sending organizations (i.e. VSO, JICA/JOCV, SNV, UNV, etc.) and other
                development agencies.

             Information Sharing:

             7. Develops and organizes safety and security resources such as manuals, books,
                leaflets, pamphlets, slides, videos, and memos and makes their contents and Peace
                Corps policies known to staff and Volunteers.

             8. Maintains post crime statistics and reviews (analyzes) trends.

             Training:

             9. Participates in the design, development and delivery of PST and IST sessions in
                the areas of personal safety and security. Participates in staff and guard safety
                and security training, as appropriate.

             10. With the training manager, participates in the selection and orientation of home-
                 stay families for PST, as appropriate.

             Site Selection and Monitoring:

             11. Works with the Peace Corps Medical Officer (PCMO) and Associate Peace Corps
                 Directors (APCDs) to develop and maintain Volunteer site and housing selection
                 criteria and procedures. Participates in site visits as appropriate.
APPENDIX C

             12. Updates village and home-stay safety and security checklist, guidelines and
                 policies.

             13. Provides advice to APCDs regarding site placements and/or Volunteer site
                 changes.

             Incident Reporting and Response:

             14. Works closely with the CD to develop reporting and follow-up procedures for
                 incidents reported by Volunteers (housing inspection, police follow-up, property
                 damage, etc.).

             15. Ensures that reportable incidents are communicated to the CD for coordination
                 with the Office of Inspector General (OIG). Coordinates follow-up activities as
                 appropriate.

             16. Helps coordinate PCV and local Police contacts/communication in the incident
                 reporting process as needed.

             EAP Planning and testing:

             17. Under the direction of the CD, coordinates the testing of the EAP with staff at
                 least once per year. In collaboration with other staff, prepares a written report of
                 the results of the EAP test and distributes it to all interested parties. Assists with
                 EAP revisions as needed.

             Other Duties:

             18. In collaboration with the CD, follows-up on recommendations from PCSSO
                 visits.

             19. In collaboration with the CD/PCSSO/General Services Officer (GSO), follows up
                 on Regional Security Officer (RSO) security recommendations for the Peace
                 Corps office and staff residences.

             20. Performs other safety and security duties as assigned by the Country Director.
APPENDIX D


                           PEOPLE IN AID SECURITY POLICY
       People in Aid provides the following example of a safety and security policy in its
       “Promoting Good Practice in the Management and Support of Aid Personnel,” 2008
       revision.

       Organizational Pre-requisites/commitment
              •   A value statement relating to the safety and security of personnel
              •   A statement defining safety and security
              •   An organizational location for security preparedness and coordination. E.g. A
              •   Security Officer
              •   A Crisis Management strategy
              •   Incident analysis and evaluation component
              •   A budget allocated to security training and implementation
              •   A statement defining organizational relationship with local and international legal
                  provisions
              •   A statement regarding relationship with armed guards or military units
              •   A statement clearly outlining the organizations policy on kidnapping for ransom
              •   Provision of health and other insurance cover for personnel

       Key components of a security policy
              •   Statement as to who is responsible for designing and modifying the policy
              •   Process of evaluation of policy. Who reviews it and how often?
              •   A process of risk assessment incorporated at all levels
              •   Choice of a Security Strategy. Who chooses and may the strategy be changed?
                      o   Acceptance
                      o   Protection
                      o   Deterrence
              •   Crisis Management Team
              •   Stress and Trauma Management
              •   Coverage by the policy. Does this include all staff as well as dependents?
              •   Statement on individual responsibility for staff to reduce exposure to risk
              •   Media relations
              •   Training processes for all personnel covered by the policy
              •   Evacuation plan for staff from high-risk environments
              •   Contingency plans for other emergencies
                      o   Medical emergencies
                      o   Kidnapping
                      o   Natural disasters
              •   Standard operating procedures
                      o   Money
                      o   Communications
                      o   Vehicles
                      o   Mines
                      o   Organizational assets
                      o   Data and document storage
                      o   Incident reporting
                      o   Site selection
                      o   Visitor security
APPENDIX E


             AGENCY COMMENTS TO THE PRELIMINARY REPORT


       We received comments to our preliminary report from Peace Corps management
       addressing all 28 recommendations. Additional, comments were received from the
       Department of State, Bureau of Diplomatic Security. Both agency and Department of
       State comments received are included in the following pages.
           eace
           orps
MEMORANDUM TO THE INSPECTOR G E NERAL 

To:            Kathy Buller, Inspector General

From:          The Office of the Director

CC:            Stacy Rhodes, Chief of taff      ~
               E dward C. Hob n, s ociate Director fat Safety and ecurity
               Esther Benjamin, Associate Director of Global Operati ons
               Roger Conrad, Acting III Inter-America and Pacific R egion
               Lynn Foden, Acting RD Africa Region
               D avid Burgess, Acting RD Europe, Mediterranean and Asia Region
               Carl Sosebee, General Counsel
               Bill Rubin, D eputy General Counsel
               Rosie Mauk, AD Volunteer Recnlitment and election
               Thomas Bellamy, Acting Chief Financial Officer
               Carey Fountain, Chief Acquisition Officer
               N icola Cullen, Policy & Program Analyst

Date:          April 12, 1010

Subject:       Response to Preliminary Audit Report: Peace COlpS Volunteer Safety and Security Program


T his is a joint response to the recommendations made by the Office of the Inspector General regarding
Volunteer Safety and Security as outlined in the Preliminary Audit Report: Peace Corps Volunteer Safety
and Security Program, dated February 2010.

The Office of Inspector Genera l (OIG) recommendations are numbered 1 through 28. Appearing
immediately after each recommendation and labeled as D isposition is the Peace Corps response.

The agency concurs with 27 and   pa rti~Uy   concurs with 1 of 28 recommendations.




                            Paul D. Coverdell Peaf e Corps Headquarters
                            1111 20th Street NW . Washington, DC 20526
                               1. 800.424 .8580 . www.peacecorps .gov
1.   That the Director reevaluate the organizational structure related to the safety and security
     functions and establish clear lines of authority to ensure the Office of Safety and Security can
     manage the agency’s safety and security program.
     Disposition: CONCUR

2.   That the associate director for safety and security work with the associate director of global
     operations to review the roles and responsibilities of the safety and security desk officers and
     clarify the differences between the safety and security desk officers and Peace Corps safety
     and security officers to eliminate unnecessary duplication and ensure the Office of Safety and
     Security has oversight over all safety and security functions in accordance with the Peace
     Corps manual section 130.
     Disposition: CONCUR

3.   That the associate director for global operations develop standard operating procedures for
     the safety and security desk officer position based on the revised roles and responsibilities.
     Disposition: CONCUR

4.   That the associate director for safety and security work with the associate director of global
     operations and the chief financial officer to develop a process to involve the Office of Safety
     and Security in posts’ budget planning for safety and security expenses and in formulating the
     recommendation to the Director for posts safety and security needs.
     Disposition: CONCUR . The process of budgeting Safety and Security expenditures at posts will be
     included in the agency review of Volunteer safety and security.

5.   That the Director ensures that Peace Corps develop and implement a process that adequately
     tracks Peace Corps safety and security officer recommendations and ensures that corrective
     actions are taken in a timely manner. The process should define roles and responsibilities of
     responsible personnel and hold them accountable for implementation.
     Disposition: CONCUR

6.   That the associate director of global operations develop a clearly defined process that
     identifies and establishes corrective actions for posts that repeatedly submit incident reports
     late.
     Disposition: CONCUR . The Associate Director of Global Operations will review the existing process
     that identifies late submissions.

7.   That the associate director of global operations reiterate to the regions and all posts the
     importance of timely reports and formalize the abovementioned process through a policy
     memorandum or Peace Corps Manual section.
     Disposition: CONCUR . Based on the outcomes of recommendation six, corrective actions will be
     developed and communicated to all posts, as appropriate.

8.   That the chief compliance officer, in conjunction with the associate director for safety and
     security, establish a process to identify reoccurring safety and security issues and to take

                                                   1
      necessary steps to address these issues through additional guidance, clarification, or other
      action.
      Disposition: CONCUR

9.    That the associate director for safety and security, in conjunction with the associate director of
      global operations, develop a process to track post compliance with the Peace Corps policies
      requiring post staff to have background investigations and signed intelligence background
      information certifications.
      Disposition: CONCUR

10. That the associate director of global operations require posts to use the Administrative
    Management Control Survey, or at a minimum the safety and security section, to ensure that
    posts continue to review and assess compliance with Peace Corps Manual section 270.
      Disposition: CONCUR . The FY 2011-2013 IPBS guidance indicates that all posts are expected to
      complete the AMCS. The Associate Director of Global Operations will require posts to use AMCS
      through a policy memo.

11.   That the Director provide the Office of Safety and Security with the mandate, authority, and
      resources to review post responses to the safety and security sections of the Administrative
      Management Control Survey and use them to provide guidance on areas of weakness and
      provide assistance, as appropriate, when posts report non-compliance.
      Disposition: CONCUR . The Director will ensure that guidance is provided to the field that will
      authorize the Office of Safety and Security to review the AMCS and to use post responses as a basis
      for providing guidance and technical assistance.

12. That the associate director of global operations work with the associate director for safety and
    security and post personnel to review the safety and security coordinator position and
    determine the needed safety and security coordinator roles and responsibilities.
      Disposition: CONCUR

13. That the associate director of global operations, in coordination with the general counsel,
    update the safety and security coordinator position’s statement of work and define minimum
    skills and education, as well as the position descriptions for all personnel at post with safety
    and security responsibilities, based on the review of safety and security coordinator roles and
    responsibilities.
      Disposition: CONCUR . The Associate Director of Global Operations, in coordination with the
      Associate Director for Safety and Security and the Chief Acquisition Officer, will review the SSC
      SOWs and update the roles and responsibilities, as appropriate.

14. That the associate director for safety and security work with the associate director of global
    operations and post personnel to determine an appropriate pay grades for safety and security
    coordinators based on the updated review of the safety and security coordinator role and
    responsibilities.
      Disposition: CONCUR

                                                      2
15. That the associate director for safety and security work with the associate director of global
    operations and post personnel to assess the need for additional safety and security personnel
    at posts and develop a standard evaluation process for determining the required number of
    staff.
     Disposition: CONCUR

16. That the associate director for safety and security work with the associate director of global
    operations to reassess the Peace Corps safety and security officer roles and responsibilities
    and revise the job description accordingly.
     Disposition: CONCUR

17. That the associate director for safety and security work with the associate director of global
    operations to analyze whether the posting of each Peace Corps safety and security officer
    enhances safety and security and is the most efficient, effective, and cost effective placement.
    If needed, relocate Peace Corps safety and security officers accordingly.
     Disposition: CONCUR . The Associate Director of Global Operations will work with the Associate
     Director for Safety and Security to review the posting of PCSSOs. This analysis will be based on
     findings from the analysis undertaken as a result of several of the recommendations in this report.

18. That the associate director for safety and security develop and implement a training program
    for Peace Corps safety and security officers based on updated descriptions of their roles,
    responsibilities, and needed skills.
     Disposition: CONCUR

19. That the associate director for safety and security work with the associate director of global
    operations to develop and implement a training program for safety and security coordinators
    based on updated descriptions of their roles, responsibilities, and needed skills.
     Disposition: CONCUR

20. That the Director allocate sufficient resources to implement safety and security coordinator
    and Peace Corps safety and security officer trainings.
     Disposition: CONCUR

21. That the associate director for safety and security coordinate an agency-wide effort to develop,
    document and disseminate a comprehensive safety and security plan that includes the
    agency’s safety and security strategy, security risks, and policies to mitigate those risks.
     Disposition: CONCUR

22. That the associate director for safety and security work with the associate director of global
    operations to consolidate the standard operating procedures for safety and security
    coordinators and ensure the agency has a procedure for all security issues.
     Disposition: CONCUR . At the conclusion of the agency’s study of safety and security, the Associate
     Director for Safety and Security will develop SSIs for all major security issues.


                                                    3
23. That the associate director for safety and security work with the associate director for
    volunteer recruitment and selection to provide Volunteers with a consolidated handbook on
    the basic principles of Volunteer safety during the recruitment and staging processes.
     Disposition: CONCUR. However, we would like to note that until a Volunteer swears in, he or she is
     a trainee not a Volunteer.

24. 24. That the associate director of global operations, in conjunction with the associate director
    for safety and security and the associate director for volunteer recruitment and selection,
    develop a code of conduct or list of basic security principles that Volunteers must sign before
    departure to ensure Volunteers know their responsibilities and accept the risks involved with
    serving overseas.
     Disposition: CONCUR. However, we would like to note that until a Volunteer swears in, he or she is
     a trainee not a Volunteer.

25. That associate director for volunteer recruitment and selection work with the associate
    director for safety and security to ensure the information presented to Volunteers at staging
    adequately addresses security risks, teaches steps to mitigate those risks, and identifies key
    Peace Corps personnel involved in the security process.
     Disposition: PARTIALLY CONCUR . The Associate Director for Safety and Security has and will
     continue to collaborate with the Associate Director for Volunteer Recruitment and Selection regarding
     the content of the training provided at staging. However, it has been determined that Staging is not the
     most appropriate venue for attempting to teach mitigation strategies, particularly since much of this
     information is post-specific. The Office of Safety and Security continues to work with the Global
     Operations and OPATS to improve the quality of safety and security training that is provided during
     PST. The Office of Safety and Security will work with Volunteer Recruitment and Selection to review
     the safety and security content that is presented at Staging.

26. That the associate director for safety and security update Peace Corps Manual sections 130
    and 270 to include the roles and responsibilities of the current safety and security offices and
    key positions.
     Disposition: CONCUR . The Associate Director for Safety and Security will update MS 270 and 130.

27. That the chief of staff direct the update to Peace Corps Manual section 340 to include the roles
    and responsibilities of the Office of Safety and Security and the Office of Medical Services.
     Disposition: CONCUR . The Chief of Staff will direct that MS 340 be updated to include the roles and
     responsibilities of the Office of Safety and Security and the Office of Medical Services.

28. That the Director, in conjunction with the associate director for safety and security, develop
    formal documentation with the Department of State Bureau of Diplomatic Security to clarify
    the roles and responsibilities for overseas safety and security regarding Peace Corps staff and
    Peace Corps Volunteers.
     Disposition: CONCUR




                                                     4
APPENDIX F


                                       OIG COMMENTS

       When comments on OIG reports are received, they are evaluated to ensure (1) all
       findings and recommendations raised in the preliminary report are addressed,
       (2) estimated completion dates of action are reasonable, and (3) comments are
       responsive.

       Of the 28 recommendations made in our audit report, management fully concurred with
       27 recommendations, partially concurred with one recommendation. However,
       management’s comments were incomplete and not fully responsive to the audit report
       and recommendations. Management’s comments did not provide specific actions or
       timeframes to address our audit findings and recommendation. As a result, we were
       unable to close any the recommendations.

       We request that the Chief Compliance Officer work with management officials to
       develop a concrete strategy to address the findings and recommendations in our report
       including planned corrective actions and timeframes for completion of each corrective
       action.
APPENDIX G


                       AUDIT COMPLETION AND OIG CONTACT

       AUDIT COMPLETION
       This audit was a combined effort by auditors and evaluators conducted by the following:

             •   Mr. Gerry Montoya, Assistant Inspector General for Audit
             •   Ms. Susan Gasper, Senior Evaluation
             •   Mr. Brad Grubb, Senior auditor
             •   Ms. Heather Robinson, evaluator


       OIG CONTACT
       If you wish to comment on the quality or usefulness of this report to help us strengthen
       our product, please email Gerald P. Montoya, Assistant Inspector General for Audit, at
       gmontoya@peacecorps.gov, telephone 202.692.2907 or Jim O’Keefe, Assistant Inspector
       General for Evaluations, at jokeefe@peacecorps.gov, telephone 202.692.2904.
         REPORT FRAUD, WASTE, ABUSE,
            AND MISMANAGEMENT

Fraud, waste, abuse, and mismanagement in government affect
everyone from Peace Corps Volunteers to agency employees to the
general public. We actively solicit allegations of inefficient and
wasteful practices, fraud, abuse, and mismanagement related to
Peace Corps operations domestically or abroad. You can report
allegations to us in several ways, and you may remain anonymous.




Mail:          Peace Corps
               Office of Inspector General
               P.O. Box 57129
               Washington, DC 20037-7129

Phone:         24-Hour Toll-Free:                  800.233.5874
               Washington Metro Area:              202.692.2915


Fax:           202.692.2901

Email:         oig@peacecorps.gov
